<html>
<title> - HOMELAND SECURITY IMPLICATIONS OF THE OPIOID CRISIS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          HOMELAND SECURITY IMPLICATIONS OF THE OPIOID CRISIS

=======================================================================

                             JOINT HEARING

                              BEFORE THE

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                                AND THE

                    SUBCOMMITTEE ON BORDER SECURITY,
                     FACILITATION, AND OPERATIONS,
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2019

                               __________

                           Serial No. 116-34

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

       Available via the World Wide Web: http://www.govinfo.gov/

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-417 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                               
                              

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                
                                ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                      Max Rose, New York, Chairman
Sheila Jackson Lee, Texas            Mark Walker, North Carolina, 
James R. Langevin, Rhode Island          Ranking Member
Elissa Slotkin, Michigan             Peter T. King, New York
Bennie G. Thompson, Mississippi (ex  Mark Green, Tennessee
    officio)                         Mike Rogers, Alabama (ex officio)
                  Vacancy, Subcommittee Staff Director
           Mandy Bowers, Minority Subcommittee Staff Director
                                 ------                                

     SUBCOMMITTEE ON BORDER SECURITY, FACILITATION, AND OPERATIONS

                 Kathleen M. Rice, New York, Chairwoman
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana, Ranking 
J. Luis Correa, California               Member
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Al Green, Texas                      John Joyce, Pennsylvania
Yvette D. Clarke, New York           Michael Guest, Mississippi
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
             Alexandra Carnes, Subcommittee Staff Director
          Emily Trapani, Minority Subcommittee Staff Director
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Max Rose, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Intelligence 
  and Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mark Walker, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Chairwoman, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9

                               Witnesses

Ms. Sondra Mc Cauley, Assistant Inspector General for Audits, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Ms. Bridget G. Brennan, Special Narcotics Prosecutor for the City 
  of New York:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Bryce Pardo, Ph.D., Associate Policy Researcher, Rand 
  Corporation:
  Oral Statement.................................................    41
  Prepared Statement.............................................    44
Mr. James Edward Hinson, Jr., Deputy Chief, Investigative Bureau 
  Commander, Greensboro Police Department:
  Oral Statement.................................................    53
  Prepared Statement.............................................    55

                                Appendix

Questions From Chairman Thompson for Sondra McCauley.............    79
Question From Chairman Thompson for Bridget G. Brennan...........    79
Questions From Chairman Bennie G. Thompson for Bryce Pardo.......    79

 
          HOMELAND SECURITY IMPLICATIONS OF THE OPIOID CRISIS

                              ----------                              


                        Thursday, July 25, 2019

             U.S. House of Representatives,
Subcommittee on Intelligence and Counterterrorism, 
                                            and the
                          Subcommittee on Border Security, 
                              Facilitation, and Operations,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:06 a.m., 
in room 310, Cannon House Office Building, Hon. Max Rose 
[Chairman of the Subcommittee on Intelligence and 
Counterterrorism] presiding.
    Present from the Subcommittee on Intelligence and 
Counterterrorism: Representatives Rose, Langevin, Slotkin, 
Walker, and Green.
    Present from the Subcommittee on Border Security, 
Facilitation, and Operations: Representatives Rice, Payne, 
Correa, Torres Small, Clarke, Higgins, and Guest.
    Also present: Representatives Underwood and Trone.
    Mr. Rose. OK. The Subcommittee on Intelligence and 
Counterterrorism and the Subcommittee on Border Security, 
Facilitation, and Operations will come to order.
    Today, the subcommittees I just mentioned are meeting to 
examine homeland security implications of America's 
unprecedented opioid epidemic.
    We look forward to the witnesses discussing the flow of 
illicit fentanyl into the United States, including China and 
Mexico's role; the role of the Department of Homeland Security 
and its partners in combating that flow; and how to best 
mitigate this threat.
    I think we would all agree, at this point, that this is a 
quintessentially nonpartisan issue of public health and 
National security of critical, critical importance. I certainly 
see in my own district where we have young people dying every 
week, growing rates, from fentanyl-laced heroin. I have spoken 
to too many mothers and fathers who have had to bury their 
child.
    Now, it is our responsibility to do everything we can to 
save lives. I believe that is our greatest responsibility here 
in these hallowed halls.
    Yes, we are seeing progress. For perspective, in New York 
City, the Centers for Disease Control indicates that in a 12-
year span, from 2000 to 2012, fentanyl was identified in 2 
percent of all drug overdose deaths. Sadly, by 2016, that 
number had risen to 44 percent.
    What is critical, as we look at this on a high level, is we 
have to make sure that we are not just fighting the last war. 
So much of our focus here in Congress when it comes to the 
opioid epidemic is on prescription pills. That focus is 
justified, but as we see more and more fentanyl in our streets 
and it being harder and harder to get pills, more people will 
be moving to fentanyl-laced products.
    We have to get to the source of this. That source, as I 
said, is clearly China and then Mexico thereafter.
    As we consider this, though, it is critical to make two 
last points. The first is that it is critical that we use all 
the tools at our disposal: Intelligence gathering but also the 
operations centered around CBP at our ports of entry as well as 
our major airports.
    But we do all this with the understanding that no one here 
is seeking to criminalize this public health crisis. We are not 
seeking to make the same mistakes that we did a generation ago. 
But we do understand that law enforcement plays a critical role 
that cannot be ignored. This is, as I said, a critical homeland 
security issue.
    I am concerned, though, that we have not been taking this 
seriously enough. A recent DHS Office of Inspector General 
report from last September indicates DHS's Customs and Border 
Protection's mail inspection process needs improvement at JFK 
International Airport. Dealers on the dark web are already 
taking advantage of security gaps highlighted in this OIG 
report, and they are doing it flagrantly with a wanton 
disregard for our law enforcement officials, so much so that 
they even offer free return service if the first order doesn't 
work out.
    Equally concerning is last week's management alert 
indicating CBP did not adequately protect employees from 
possible fentanyl exposure. Accidental inhalation or physical 
contact with fentanyl is deadly.
    Folks, we have to fix this. We have to continue to be 
better here. I think we all have to come to the understanding 
that this fight is not going away. So one central question I 
will have today is, how do we build inflexibility into our 
systems? How do we continue to look down the road and adapt to 
future ways in which these horrific organizations, these 
transnational criminal organizations, these pharmaceutical 
companies overseas continue to think of new and innovate ways 
to kill our kids?
    [The statement of Chairman Rose follows:]
                     Statement of Chairman Max Rose
                             July 25, 2019
    Today, the Subcommittee on Intelligence and Counterterrorism, and 
the Subcommittee on Border Security, Facilitation, and Operations are 
meeting to examine the homeland security implications of America's 
unprecedented opioid epidemic. We look forward to the witnesses 
discussing the flow of illicit fentanyl into the United States, 
including China and Mexico's role; the role of the Department of 
Homeland Security and its partners in combating that flow, and how to 
best mitigate this threat. I believe we can all agree that we have an 
opioid crisis in our country. Nothing about this is partisan and I know 
we can come together, Democrats and Republicans, to fight fentanyl and 
end this epidemic. While news that drug overdose deaths are on the 
decline is welcoming, the overall rate of overdose deaths linked to 
fentanyl continues to rise.
    My district has been one of the epicenters of the epidemic. I've 
spoken to too many mothers and fathers who have had to bury their 
child. So, are we seeing progress? Yes, but nowhere near enough. For 
perspective, New York City, the Center for Disease Control indicates 
that in a 12-year span, from 2000 to 2012, fentanyl was identified in 2 
percent of all drug overdose deaths. Sadly, by 2016, that number rose 
to 44 percent. And by 2017, 57 percent of all deaths that resulted from 
drug overdose had fentanyl involved. Nearly 1,500 lives gone. From 2 
percent of overdose deaths to over half of all overdose deaths in just 
5 years--that is shocking. Much of the fentanyl seized in New York City 
is produced by Mexican cartels, which acquire chemical precursors from 
China, the world's largest producer of illicit fentanyl. New York City 
is not an outlier here. Fentanyl and its analogues are devastating 
communities throughout this country.
    Just last year, 48,000 overdose deaths involved an opioid, and 
nearly 32,000 of which involved fentanyl or a similar drug. Most of 
that illicit fentanyl from China arrives via cargo ship and 
international mail. Illicit fentanyl seized from international mail 
facilities in the United States coming from China is over 90 percent 
pure. For perspective on the lethality of illicit fentanyl, it is 80 to 
100 times stronger than morphine and 30 to 50 times more potent than 
heroin. All it takes is 2 milligrams to kill most people. That's about 
the equivalent of a single grain of rice. And once exposed, it could 
kill in minutes. And that is just fentanyl, there are other forms of 
the drug that are far more deadly. Congress has been working hard to 
address this crisis. Earlier this year I introduced legislation, The 
Fentanyl Sanctions Act, that will impose sanctions on manufacturers who 
provide fentanyl to traffickers. And it gives more tools and resources 
to law enforcement go after illicit fentanyl traffickers in China, 
Mexico, and other countries. This bill passed with bipartisan support 
in the House of Representatives and the Senate. And I look forward to 
the President signing it into law soon.
    The days when a country could pump our streets full of illicit 
drugs and chemicals and face no consequences are over. I'm also proud 
to be co-leading the Joint Task Force to Combat Opioid Trafficking Act 
with my good friend Congressman Jim Langevin. This bipartisan bill will 
establish a Joint Task Force at the Department of Homeland Security to 
stop the inflow of fentanyl and other illicit opioids into the United 
States. This critical bill also encourages the Department of Homeland 
Security to be innovative and think outside the box to fight drug 
trafficking--including by looking at new ways to take advantage of 
public-private partnerships when carrying out this mission. Officials 
at the local, State, and Federal levels have also been working hard to 
address this crisis, and I applaud them for their efforts.
    In March of this year, the Drug Enforcement Administration and 
local law enforcement disrupted a fentanyl mill in Westchester, New 
York, seizing 5 kilograms of fentanyl, or enough to kill nearly 2 
million people. However, I am concerned about a recent DHS Office of 
Inspector General report from last September which indicates DHS's 
Custom and Border Protection's mail inspection process needs 
improvement at JFK International Airport in New York City. With much of 
the illicit fentanyl arriving via international mail from China, this 
is concerning. Already, dealers on the dark web take advantage of the 
existing security gaps highlighted in the OIG report. They guarantee 
delivery of their illicit fentanyl and even offer replacing orders that 
do not arrive. Equally concerning is last week's Management Alert 
indicating CBP did not adequately protect employees from possible 
fentanyl exposure. Accidental inhalation or physical contact of 
fentanyl is deadly. We need to protect those tasked to protect America 
and ensure CBP has the adequate equipment, training, and policies to 
ensure a safe work environment.

    Mr. Rose. With that, I thank the witnesses and Members for 
being here, and I now recognize the Ranking Member of the 
subcommittee, Mr. Walker, for an opening statement.
    Mr. Walker. I want to thank Chairman Rose and Chairwoman 
Rice and Ranking Member Higgins for holding this important 
joint hearing on the opioid crisis, which knows, as we all 
understand, no social status and has no party affiliation.
    I look forward to hearing from our distinguished panel 
today on the ways we can assist in their on-going efforts in 
combating this ever-present crisis.
    Today, we hope to gain insight in how the Department of 
Homeland Security is supporting our State and local agencies 
who are working on the front lines to identify and treat the 
on-going opioid crisis.
    Back in 2017, I went on a 2-day, 7-stop opioid crisis tour 
across North Carolina to try and grasp or better understand the 
full scope of what we were seeing as the, and rightly named, 
opioid epidemic. I received a first-hand account of the 
realities, the burdens, and struggles my fellow North 
Carolinians face every day. As a former minister, I can tell 
you first-hand accounts, being at the hospital and other 
places, and seeing the detriment that it has created for so 
many families.
    In my Congressional district, deaths related to fentanyl 
increased 195 percent in just 1 year alone, between 2016 and 
2017, real numbers that went from 64 fatalities to 189 
fatalities. Across North Carolina, it is rare for a day to go 
by without the news of an arrest for an opioid distribution, 
reports of overdose deaths, or first responders providing life-
saving critical aid.
    I want to highlight the work at the Guilford County--that 
is our home county there in North Carolina--Emergency Services, 
specifically led by Director Jim Albright. They have partnered 
with a number of State and local agencies to develop the 
Guilford County Solution to the Opioid Problem.
    GCSTOP works to provide rapid response services to 
individuals who have overdosed or are at risk of overdosing. 
From March 2018 to April 2019, 13 months, GCSTOP administered 
1,661 doses of naloxone, performed 447 rescues from overdose, 
and provided treatment to 157 patients. I am greatly encouraged 
by this effort and am interested to hear from the witnesses 
today if they have recommendations on how to duplicate programs 
like GCSTOP across the country.
    I want to especially thank Deputy Chief James Hinson of the 
Greensboro, North Carolina, Police Department for testifying 
today. Your testimony will offer us an on-the-ground 
perspective on what local police are dealing with every day 
related to opioids.
    The successes that Chief Wayne Scott, my friend, and Deputy 
Chief Hinson and all of the Greensboro Police Department have 
accomplished has really been nothing short of incredible.
    I have enjoyed working with you in the past, and I am proud 
the committee will be able to hear your first-hand account on 
what you and the Department have done to help our home State.
    Today's hearing is an opportunity to better understand the 
threat facing law enforcement and communities across the United 
States. As legislators, we must continue to work in a 
bipartisan fashion to address the opioid crisis. I look forward 
to the panel's insight as to what is working well and 
recommendations for what could be done better.
    I want to thank all the witnesses for appearing here today, 
and I yield back the balance of my time.
    [The statement of Ranking Member Walker follows:]
                Statement of Ranking Member Mark Walker
    I want to thank Chairman Rose, Chairwoman Rice, and Ranking Member 
Higgins, for holding this important joint hearing on the opioid crisis, 
which knows no social status and has no party affiliation. I look 
forward to hearing from our distinguished panel on ways we can assist 
in their on-going efforts in combating this crisis.
    Today, we hope to gain insight in how the Department of Homeland 
Security is supporting our State and local agencies who are working on 
the front lines to identify and treat the on-going opioid crisis.
    Back in 2017, I went on a 2-day, 7-stop opioid crisis tour across 
North Carolina to better understand the full scope of the opioid 
epidemic. I received a first-hand account of the realities, burdens, 
and struggles my fellow North Carolinians face every day. In my 
Congressional District, deaths related to fentanyl increased 195 
percent between 2016 and 2017 from 64 fatalities to 189 fatalities. 
Across North Carolina, it is rare for a day to go by without news of an 
arrest for opioid distribution, reports of overdose deaths, or first 
responders providing critical life-saving aid.
    I want to highlight the work at the Guilford County Emergency 
Services led by Director Jim Albright. They have partnered with a 
number of State and local agencies to develop the Guilford County 
Solutions To the Opioid Problem (GCSTOP). GCSTOP works to provide rapid 
response services to individuals who have overdosed or at risk of 
overdosing. From March 2018 to April 2019, CGSTOP administered 1,661 
doses of Naloxone, performed 447 rescues from overdoses and provided 
treatment to 157 patients. I am greatly encouraged by this effort and 
am interested to hear from the witnesses today if they have 
recommendations on how to duplicate programs like GCSTOP across the 
country.
    I want to especially thank Deputy Chief James Hinson of the 
Greensboro North Carolina Police Department for testifying today. Your 
testimony will offer us an on-the-ground perspective on what local 
police are dealing with every day related to opioids. The successes 
that Chief Wayne Scott, Deputy Chief Hinson, and all of the Greensboro 
Police Department have accomplished has been nothing short of 
incredible. I have enjoyed working with you in the past and I am proud 
the committee will be able to hear your first-hand account on what has 
been done to help our home State.
    Today's hearing is an opportunity to better understand the threat 
facing law enforcement and communities across the United States. As 
legislators, we must continue to work in a bipartisan fashion to 
address the opioid crisis. I look forward to the panel's insight as to 
what is working well and recommendations for what work could be done 
better.
    I want to thank all the witnesses for appearing here today and I 
yield back the balance of my time.

    Mr. Rose. Thank you, Ranking Member.
    I now recognize the Chairwoman of the Border Security, 
Facilitation, and Operations Subcommittee, Miss Rice, for an 
opening statement.
    Miss Rice. Thank you, Mr. Chairman.
    Good morning. As Chairman Rose has said, today, our 
subcommittees are examining the challenges we face in 
addressing one of the most severe health crises in our Nation's 
history.
    Last year alone, more than 48,000 people in the United 
States died as a result of an opioid overdose, with fentanyl 
and other synthetic opioids claiming the vast majority of the 
victims, nearly 40,000 in total.
    These numbers emphasize a critical fact: We are currently 
in a new phase, a third wave, of the devastating opioid crisis, 
one characterized by dangerous and deadly synthetic opioids 
known as fentanyl analogues. Today, we are here to learn what 
innovative solutions can be used to address this crisis.
    The third wave of the opioid crisis is distinct from 
earlier phases of the epidemic, which were characterized by 
prescription drug abuse and a surge in heroin addiction that 
overwhelmed public health officials. As destructive as the 
earlier stages were, the challenges we are now facing are far 
greater and more vexing than ever, and they demand an 
aggressive, bipartisan solution.
    As we all know, the prescription opioids that began this 
epidemic were produced and, for a time, obtained legally. The 
heroin epidemic that followed was primarily imported into the 
United States along traditional narcotics routes. However, 
traffickers in fentanyl and other synthetics are exploiting an 
entirely different model. Based on recent data, the majority of 
synthetic opioids originate in labs in China and often enter 
our country through the U.S. postal system.
    Furthermore, these substances can be ordered through dark-
web e-commerce sites and arrive at mailing facilities in small, 
untraceable quantities. Because synthetics are difficult to 
detect using existing technology, it is extraordinarily hard to 
stop their distribution once they reach our mail facilities.
    It has become frustratingly apparent that we cannot tackle 
this problem using existing technology and law enforcement 
strategies. Effective solutions must be bold and innovative. 
First, we need to eliminate manufacturing centers for synthetic 
opioids, and, second, we need to prevent their movement through 
the international mail system.
    While successfully achieving these goals will take broad 
collaboration across government agencies, this committee has 
already taken a significant and, I am happy to say, a 
bipartisan step forward.
    Last week, we passed out of committee the Joint Task Force 
to Combat Opioid Trafficking Act, sponsored by Mr. Langevin. 
This vital piece of legislation was passed by bipartisan 
consensus in the 115th Congress before stalling in the Senate. 
It is essential that we now support its passage on the House 
floor and work with our colleagues in the Senate to ensure that 
it passes there as well.
    This important bill authorizes collaboration with the 
private sector on this challenge, allowing the new DHS joint 
task force to work with the private companies whose activities 
are being exploited by traffickers. Improved screening 
procedures, greater targeting of suspicious senders, and better 
information-sharing processes can all help our law enforcement 
agencies in interdicting fentanyl analogues before they reach 
our borders.
    Although our priority must be stopping synthetic opioids, 
we must also ensure the safety of DHS law enforcement 
personnel. A recent management alert issued by the DHS 
inspector general identified significant failures on the part 
of CBP to protect its front-line personnel tasked with handling 
and storing seized fentanyl and fentanyl analogues. 
Specifically, numerous CBP facilities failed to keep naloxone, 
an effective antidote to fentanyl, readily available in storage 
vaults and other locations where agents interact with fentanyl.
    DHS must have efficient methods for protecting its 
personnel from accidental contact with fentanyl, and Congress 
must conduct sufficient oversight to ensure that these 
protective steps are being taken at all facilities.
    With the goals in mind, I welcome the witnesses who have 
joined us here today. You all are experts in the field of 
narcotics interdiction and law enforcement, and I look forward 
to hearing your testimony.
    Thank you, Mr. Chairman.
    [The statement of Miss Rice follows:]
                 Statement of Chairwoman Kathleen Rice
                             July 25, 2019
    Today our subcommittees are examining the challenges we face in 
addressing one of the most severe health crises in our Nation's 
history. Last year alone, more than 48,000 people in the United States 
died as a result of an opioid overdose, with fentanyl and other 
synthetic opioids claiming the vast majority of the victims . . . 
nearly 40,000 in total. These numbers emphasize a critical fact: We are 
currently in a new phase--a third wave--of the devastating opioid 
crisis, one characterized by dangerous and deadly synthetic opioids, 
known as fentanyl analogues.
    Today, we are here to learn what innovative solutions can be used 
to address this crisis. The third wave of the opioids crisis is 
distinct from earlier phases of the epidemic, which were characterized 
by prescription drug abuse and a surge in heroin addiction that 
overwhelmed public health officials. As destructive as the earlier 
stages were, the challenges we are now facing are far greater and more 
vexing than ever. And they demand an aggressive bipartisan solution. As 
we all know, the prescription opioids that began this epidemic were 
produced and, for a time, obtained legally. And the heroin epidemic 
that followed was primarily imported into United States along 
traditional narcotics routes.
    However, traffickers in fentanyl and other synthetics are 
exploiting an entirely different model. Based on recent data, the 
majority of synthetic opioids originate in labs in China and often 
enter our country through the U.S. postal system. Furthermore, these 
substances can be ordered through dark web e-commerce sites and arrive 
at mailing facilities in small, untraceable quantities. Because 
synthetics are difficult to detect using existing technology, it is 
extraordinarily hard to stop their distribution once they reach our 
mail facilities. It has become frustratingly apparent that we cannot 
tackle his problem using existing technology and law enforcement 
strategies. Effective solutions must be bold and innovative. First, we 
need to eliminate manufacturing centers for synthetic opioids and 
second, we need to prevent their movement through the international 
mail system.
    While successfully achieving these goals will take broad 
collaboration across Government agencies, this committee has already 
taken a significant--and I am happy to say a bipartisan--step forward. 
Last week we passed out of committee the Joint Task Force to Combat 
Opioid Trafficking Act, sponsored by Mr. Langevin. This vital piece of 
legislation was passed by bipartisan consensus in the 115th Congress, 
before stalling in the Senate. It is essential that we now support its 
passage on the House floor and work with our colleagues in the Senate 
to ensure that it passes there as well. This important bill authorizes 
collaboration with the private sector on this challenge, allowing the 
new DHS Joint Task Force to work with the private companies whose 
activities are being exploited by traffickers. Improved screening 
procedures, greater targeting of suspicious senders, and better 
information-sharing processes can all help our law enforcement agencies 
in interdicting fentanyl analogues before they reach our borders.
    Although our priority must be stopping synthetic opioids, we must 
also ensure the safety of DHS law enforcement personnel. A recent 
management alert issued by the DHS inspector general identified 
significant failures on the part of CBP to protect its front-line 
personnel tasked with handling and storing seized fentanyl and fentanyl 
analogues. Specifically, numerous CBP facilities failed to keep 
Naloxone, an effective antidote to fentanyl, readily available in 
storage vaults and other locations where agents interact with fentanyl. 
DHS must have efficient methods for protecting its personnel from 
accidental contact with fentanyl and Congress must conduct sufficient 
oversight to ensure that these protective steps are being taken at all 
facilities. With these goals in mind, I welcome the witnesses who have 
joined us here today. You all are experts in the fields of narcotics 
interdiction and law enforcement and I look forward to hearing your 
testimony.

    Mr. Rose. Thank you, Madam Chairwoman.
    I now recognize the Ranking Member of the subcommittee, Mr. 
Higgins, for an opening statement.
    Mr. Higgins. Thank you, Mr. Chairman. I thank you, Chairman 
Rose and Chairwoman Rice, for calling this hearing today.
    The opioid crisis is a symptom of a cultural crisis in our 
country. We have created--we have allowed to manifest a culture 
of dependency in America.
    I grew up on a horse ranch, raised and trained horses, and 
injuries were common. My father was a hard and tough man, born 
in 1922 in the era after World War I. We had a suture kit on 
the horse ranch. When the horses got cut sometimes, we would 
sew them up.
    We used that kit on ourselves too. I remember my father 
sewing up his left hand one time and remarking to me--I was 
helping him--he was glad he got his left hand busted because he 
didn't think he could do the suturing with his left hand if he 
had busted his right hand.
    We have moved from an America that was made up of very 
hard, tough men and women to a country that is addicted to 
painkillers. It is an incredible transformation from the 
America that we once knew.
    Fentanyl, 2017, 28,000 deaths, because Americans are 
addicted to opioids. More than 130 Americans die every day 
after overdosing on opioids. In my home State of Louisiana, 400 
lives were lost last year alone.
    Addiction doesn't always start with substance abuse. Many 
Americans become hooked after receiving a prescription for 
temporary pain relief. This requires a deep look in the mirror 
for all America.
    Once a prescription expires, some turn to the streets. 
Others become addicted and even overdose when illegal drugs 
they buy on the street are, unbeknownst to them, laced with 
fentanyl, an opioid maybe 100 times stronger than morphine. I 
have never seen anything like it.
    The pandemic has also affected innocent newborn children. A 
study published in the Journal of Addiction Medicine shows a 
500 percent increase in the number of children that are 
addicted to opioids at birth in the United States. Our young 
ones in the womb are being born addicted at an alarming rate 
because of this culture of dependency and weakness we have 
allowed to manifest in our country.
    We need to get these drugs off the street. They are coming 
from China and Mexico; we know it. This is why it was 
courageous for Chairman Rose and Chairwoman Rice to combine 
these subcommittee endeavors to look at this thing hard. Today, 
we have the opportunity to hear more about the impact of 
opioids on our communities and the gaps in our enforcement 
capability.
    Fentanyl and other synthetic opioids are being produced 
mostly, as we said, in China and in Mexico. Most opioids enter 
the United States through the mail or concealed within vehicles 
or cargo coming through ports of entry. We have 328 ports of 
entry in America; we have to get traffic through there. These 
drugs are also coming across in backpacks on the backs of 
illegal immigrants, cartel drug runners crossing between ports 
of entry.
    The fast movement of commerce that powers our economy 
through the ports of entry require Customs and Border 
Protection to X-ray just a fraction. They utilize canine drug-
sniffing dogs for just a portion of the mail and packages, the 
vehicles and trucks that enter our international mail 
facilities and cross the border every day.
    To combat this, we have to enhance security capabilities at 
our international mail facilities and our ports of entry. We 
must increase the detection capabilities of law enforcement on 
every level. Action to address this crisis will require 
Federal, State, local, and Tribal governments to work together.
    Finally, we have to hit the cartels. If you are listening, 
cartels, and I am sure you are, you have very expensive 
attorneys, American-educated attorneys. We are paying attention 
to what you are doing in our country, and we are going to hit 
back.
    Further resources need to be dedicated to our law 
enforcement agencies that investigate money laundering, bulk 
cash smuggling, and other methods that are used by drug cartels 
to conceal cash. American cash-flowing south; fentanyl death 
flowing north. We are going to stand together and fight this.
    I look forward to your testimony. I thank you for being 
here. I again thank the Chairwoman and Chairman for holding 
this hearing today.
    [The statement of Ranking Member Higgins follows:]
                Statement of Ranking Member Clay Higgins
    Thank you Chairman Rose and Chairwoman Rice for calling this 
hearing today.
    More than 130 Americans die every day after overdosing on opioids. 
In my home State of Louisiana 400 lives were lost just last year alone.
    Addiction does not always start with illicit substance abuse, many 
Americans become hooked after receiving a prescription for temporary 
pain relief. Once their prescription expires, some turn to the streets. 
Others become addicted and even overdose when illegal drugs they buy on 
the street are, unbeknownst to them, laced with fentanyl, an opioid 
about 100 times stronger than morphine.
    The pandemic has also affected innocent newborn children. A study 
published in the Journal of Addiction Medicine shows more than a 500 
percent increase in the number of children that are addicted to opioids 
at birth in the United States. This equates to an addicted child born 
every 15 minutes.
    We need to get these drugs off the street and find 
Constitutionally-sound legal ways to lower prescription practices. 
Today we have the opportunity to hear more about the impact of opioids 
on our communities and the gaps in our enforcement capability.
    Synthetic opioids such as fentanyl are being produced illegally in 
large quantities, mostly in China, but also increasingly in Mexico. 
Most opioids enter the United States through the mail, concealed within 
vehicles or cargo coming through the ports of entry, and in backpacks 
of cartel drug runners.
    To ensure the speedy movement of commerce that powers our economy, 
Customs and Border Protection can only X-ray or utilize drug-sniffing 
dogs for a fraction of the mail, packages, vehicles, and trucks that 
enter our international mail facilities and cross the border every day.
    To combat this, we must enhance security capabilities at our 
international mail facilities, ports of entry, and along the border.
    In addition, we must increase the detection capabilities of law 
enforcement, on every level. Action to address this crisis will require 
Federal, State, local, and Tribal governments to work together.
    Finally, we must hit the cartels. Further resources need to be 
dedicated to our law enforcement agencies that investigate money 
laundering, bulk cash smuggling, and other methods that are used by 
drug cartels to conceal cash.
    I look forward to the testimony from our witnesses today, thank you 
for being here, and I yield back.

    Mr. Rose. Thank you, Ranking Member Higgins. I definitely 
do support this idea that this is something we can work 
together on. There are lives on the line.
    Before we continue, I do ask unanimous consent that the 
gentleman from Maryland, Mr. Trone, be permitted to sit and 
question the witnesses at today's joint subcommittee hearing.
    Without objection, so ordered.
    Other Members of the committee are reminded that, under the 
committee rules, opening statements may be submitted for the 
record.
    I welcome our panel of witnesses here today.
    Our first witness is Ms. Sondra McCauley, assistant 
inspector general for Audits, U.S. Department of Homeland 
Security. Ms. McCauley has been an auditor since 1985 and is an 
experienced inspector general with a demonstrated history of 
serving in the government administration industry.
    Next we are joined by Ms. Bridget Brennan, special 
narcotics prosecutor for the city of New York, the best city in 
America. Ms. Brennan is the first woman to hold this position 
and has been serving in the Office of the Special Narcotics 
Prosecutor since 1992. Her office plays an important role in 
developing innovative strategies to stem the flow of drugs into 
New York City.
    Next we have Dr. Bryce Pardo, associate policy researcher, 
RAND Corporation. Dr. Pardo has over 10 years of experience 
working with National, State, and local governments in crime 
and drug policy. Prior to RAND Corporation, he served as a 
legislative and policy analyst at the Inter-American Drug Abuse 
Control Commission within the Organization of American States.
    Last we have James Edward Hinson, Jr., deputy chief, 
Greensboro Police Department. Deputy Chief Hinson has been a 
part of the Greensboro Police Department since 1991. He 
previously served as commander of Eastern Division and 
executive officer of the Special Operations Division in 
District 1 and 3.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
or her statement for 5 minutes, beginning with Ms. McCauley.

STATEMENT OF SONDRA MC CAULEY, ASSISTANT INSPECTOR GENERAL FOR 
          AUDITS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. McCauley. Chairman Rose, Chairwoman Rice, Ranking 
Members Walker and Higgins, and members of the subcommittees, 
thank you for inviting me to discuss CBP's challenges in 
interdicting illegal drugs at our Nation's ports of entry.
    Opioids such as fentanyl are a huge problem. In 2016, more 
people in the U.S. died from opioids than from traffic 
accidents.
    Airports are a major entry point for illegal drugs. In 
September 2018, we reported on CBP mail inspections at JFK 
Airport, the largest of nine international mail facilities 
Nation-wide. JFK processes over half of the hundreds of 
millions of pieces of mail arriving annually. CBP makes 
subjective and risk-based determinations on what to inspect. It 
also uses a decision support tool, the Automated Targeting 
System, known as ATS, to identify mail posing a high risk of 
containing contraband.
    We identified several deficiencies in the mail inspection 
processes we examined at JFK.
    First, CBP did not inspect all inbound international mail. 
It had inadequate canine teams trained to detect narcotics, 
outdated X-ray devices to examine mail, and outdated guidance 
that did not address inspections for fentanyl.
    Second, given the large volume, CBP did not inventory all 
mail selected for inspection. As a result, CBP could not ensure 
the Postal Service provided all mail required and also could 
not ensure that all mail selected was actually inspected.
    Third, the ATS pilot for targeting high-risk mail had 
limited impact. Not all foreign post offices provided data on 
inbound mail for input to ATS. Though ATS was intended to help 
identify high-risk mail, CBP used ATS to target only 0.01 
percent of the mail at JFK each day. Even at this low 
percentage, Postal Service could not locate and hand over to 
CBP all requested mail. Postal Service staff had to search 
through large bags for the targeted items.
    Fourth, CBP's chemical analysis process was problematic. 
Officers had to open and insert a handheld device into each 
suspicious package to read the chemical makeup. If the reading 
indicated a prohibited item, officers took a second digital 
reading and sent it to the labs for diagnosis. CBP could only 
send the labs what lab staff could turn around in 24 hours.
    Fifth, CBP officers did not track or physically safeguard 
suspicious packages. Officers placed them on carts that were 
relocated to a secure room. After extracting small test 
samples, the packages remained open, in piles with other 
packages, and were not placed in evidence bags until test 
results were received. Officers also did not always input 
required data into test case files.
    Last, suspicious packages were not secured from loss or 
damage. JFK lacked physical barriers to separate Postal Service 
and CBP operations. Cleared mail and suspicious mail remained 
in open carts side-by-side in the same area.
    CBP concurred with all 9 of our report recommendations and 
agreed to take correction actions. Eight of our 9 
recommendations remain open.
    Last week, we issued a management alert to notify CBP of 
the urgent need to protect its employees from the dangers of 
fentanyl. Seven vaults for storing seized assets that we visit 
lacked ways to protect CBP staff from opioid exposure.
    Even in small quantities, opioids can cause death by 
slowing and eventually stopping a person's breathing. When 
available, the drug naloxone can be administered to treat 
opioid overdose and prevent brain injury or death. However, 2 
of the 7 vaults contained fentanyl but did not also have 
naloxone available. The other 5 vaults had it in lockboxes with 
codes.
    One of the 2 vaults with naloxone held the largest seizure 
of fentanyl in CBP history, as well as the lockbox code taped 
to the wall. Staff could not remember the code for the other 
vault.
    These issues occurred because of outdated CBP policy that 
lacked standard practices for handling fentanyl. While CBP 
personnel usually take some precautions, training is not 
required. CBP is now taking corrective action to address these 
issues.
    Finally, we now have several related audits on-going to 
determine whether DHS effectively transports, stores, and 
destroys seized illicit drugs; examine CBP's use of drug 
interdiction technology at ports of entry; and follow up on 
physical security and mail inspection processes at JFK.
    Mr. Chairman and Ms. Chairman, this concludes my testimony. 
I look forward to further discussing these issues with you and 
other Members of the subcommittees.
    [The prepared statement of Ms. McCauley follows:]
                 Prepared Statement of Sondra McCauley
                             July 25, 2019
    Chairman Rose, Chairwoman Rice, Ranking Members Walker and Higgins, 
and Members of the subcommittees, thank you for inviting me to testify 
today about fentanyl and the challenges the U.S. Customs and Border 
Protection (CBP) faces in its efforts to interdict this dangerous 
substance at our Nation's ports of entry and multiple mail facilities.
    Imports of opioids such as fentanyl are a tremendous problem in the 
United States. In 2016, more people died from opioid-related causes 
than traffic accidents.

                       OPIOID DEATHS BY COMPARISON
 
------------------------------------------------------------------------
                                                                Traffic
                       Year                          Opioids   Accidents
------------------------------------------------------------------------
2015..............................................     33,000     35,485
2016..............................................     42,249     37,461
------------------------------------------------------------------------
Source: Office of Inspector General (OIG)-developed, based on web-based
  information from the Centers for Disease Control, White House, and
  National Highway Traffic Safety Administration.

    These illegal drugs have a devastating impact on the Nation's 
population, tearing apart families and communities. Therefore, the 
White House has declared the opioid epidemic a Nation-wide public 
health emergency that requires the mobilization of Government, local 
community, and private organizations.
    Given CBP's front-line responsibility to secure the Nation's 
borders from imports of illegal drugs and contraband, the component 
plays a major role in helping to end the opioid crisis. Recognizing 
that airports are a major entry point for illegal drug imports, 
Congress has held multiple hearings on the threats inherent in arriving 
international air mail. At a May 2017 hearing, CBP's Executive 
Assistant Commissioner for the Office of Operations Support stated:

``The majority of U.S. trafficked illicit fentanyl is produced in other 
countries such as China, and is principally smuggled through 
international mail facilities, express consignment carrier facilities 
(e.g., FedEx and UPS), or through POEs [ports of entry] along the 
Southern land border.''

    Today my testimony will focus on the results of 2 audits recently 
conducted by the Department of Homeland Security Office of Inspector 
General (OIG). In September 2018, we reported that CBP had ineffective 
processes and IT security controls to support air mail inspection 
operations at John F. Kennedy International Airport (JFK).\1\ 
Additionally, as a result of an on-going audit of CBP's storage of 
seized drugs, last week we issued a management alert detailing CBP's 
inadequate protection of its staff from powerful synthetic opioids.\2\ 
The results of both reports are discussed further in my testimony.
---------------------------------------------------------------------------
    \1\ CBP's International Mail Inspection Processes Need Improvement 
at JFK International Airport (Redacted), OIG-18-83 (September 2018).
    \2\ Management Alert--CBP Did Not Adequately Protect Employees from 
Possible Fentanyl Exposure, OIG-19-53.
---------------------------------------------------------------------------
   cbp's international air mail inspection is not effective to stop 
             illegal drugs from entering the united states
    With limited exceptions, all inbound international air mail is 
subject to CBP inspection.\3\ The Transportation Security 
Administration requires that foreign airports and air carriers 
initially screen international cargo headed to the United States. Then, 
when a flight lands, ground handlers at the airport provide all mail to 
the United States via the United States Postal Service (USPS), which 
transports the mail through a CBP radiation scanning portal for 
preliminary examination. CBP officials make subjective as well as risk-
based determinations as to what portion of the mail to select for 
further inspection. For example, CBP officials at JFK use knowledge 
gained from past experience to identify arriving international mail 
that may contain illegal or prohibited items. When, upon CBP 
examination, a mail article is found to contain prohibited material, 
the article is subject to seizure and forfeiture.
---------------------------------------------------------------------------
    \3\ CBP does not inspect mail believed to contain only documents 
for U.S. Government officials or mail addressed to Ambassadors of 
foreign countries.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Our audit focused on CBP's air mail inspection processes at the 
John F. Kennedy International Airport (JFK) airport. The USPS 
International Service Center at JFK is the largest of 9 USPS facilities 
Nation-wide that receive and process incoming international mail. In 
fiscal year 2016, USPS recorded an inbound international mail volume at 
JFK that constituted more than half of the hundreds of millions of 
pieces of international mail arriving annually at all international 
mail facilities. Given its inability to inspect the total volume of 
international mail arriving at the airport daily, CBP requires by 
memorandum of understanding that USPS provide for inspection specific 
subsets of the international mail that arrives daily at JFK.\4\
---------------------------------------------------------------------------
    \4\ ``Memorandum of Understanding Between the U.S. Department of 
Homeland Security, U.S. Customs and Border Protection and the U.S. 
Postal Service Regarding Cooperation in the Inspection of Goods 
Imported or Exported Through the Post,'' September 1, 2017.
---------------------------------------------------------------------------
    CBP officials treat the various categories of international mail 
(First Class, Registered Mail, Express Mail, and Priority Parcel) 
differently based on their experience and perceptions of potential 
risk. Additionally, beginning in July 2014, CBP piloted, to a limited 
extent, the use of the Automated Targeting System (ATS) to help 
identify mail at JFK that may pose a high risk of containing narcotics 
or other contraband. ATS is a decision support tool that compares 
traveler, cargo, and conveyance information against law enforcement, 
intelligence, and other enforcement data using risk-based scenarios and 
assessments.
    Of the mail selected for inspection, CBP screens and physically 
examines packages deemed to be high-risk. If a problem is found, mail 
is held for secondary inspection (i.e., manual inspection and chemical 
analysis, as appropriate). During secondary inspection, CBP determines 
whether the package should be seized or returned to USPS for 
processing. If illegal drugs or contraband are discovered, CBP must 
maintain documentation pertaining to the mail seizure and preserve the 
integrity of the item to the extent possible.
      deficiencies in cbp's international mail inspection process
    We identified a number of deficiencies in CBP's inspection 
processes at JFK that inhibit CBP's ability to prevent illegal drugs 
and contraband from entering the country, including: (1) CBP does not 
inspect all international mail selected for inspection; (2) CBP does 
not inventory all mail selected for inspection; (3) the ATS pilot for 
targeting mail has limited impact; and, (4) CBP's chemical analysis 
process for detecting illegal opioids in arriving air mail is 
problematic.
1. CBP Does Not Inspect All International Mail
    CBP does not inspect all international mail selected for inspection 
for a number of reasons. For example, CBP did not have an adequate 
number of canine teams trained to detect narcotics. Further, CBP's 
inspection of international mail was limited because CBP staff did not 
have the equipment needed to inspect the hundreds of thousands of 
pieces of international air mail that arrive at JFK each day. CBP has 
limited, outdated X-ray devices at JFK that officers use daily to 
examine only a portion of the incoming mail, one piece at a time. 
According to the memorandum of agreement with USPS, CBP requests that 
USPS provide mail packages based, for example, on knowledge and 
experience regarding whether that the country is a primary source of 
illegal drug smuggling to the United States.
    Moreover, CBP staff told us that certain items arriving from China 
may be considered high-risk. Despite the large volume and high-risk 
nature, CBP largely overlooks these items because of a lack of 
guidance. Although the nature of international mail has changed 
significantly, CBP has not updated its International Mail Operations 
and Enforcement Handbook since August 2001. CBP also has not updated 
the guidance to identify new illegal substances such as fentanyl 
arriving in international mail.
2. CBP Does Not Inventory Mail Selected for Inspection
    CBP does not keep record of mail selected for inspection, asserting 
that the large volume of daily arriving air mail and the labor-
intensive process of examining selected mail piece-by-piece do not lend 
themselves to inventory. Without an inventory, CBP could not ensure 
that USPS provided all the mail it requested for inspection purposes. 
We determined that USPS scans and inventories all mail it provides to 
and receives from CBP. However, CBP has no agreement with USPS to 
leverage this inventory to keep an account of the mail it selects for 
inspection. CBP's International Mail Operations and Enforcement 
Handbook also does not require staff to maintain an inventory of the 
mail they X-ray.
    CBP also lacks a process to substantiate that all mail selected for 
inspection is actually inspected. Without an inventory process, CBP has 
no means of ensuring it inspects all the high-risk mail it selects for 
examination and therefore might be allowing prohibited items to be 
delivered undetected. CBP officials asserted they inspected all 
international air mail that they requested of USPS; however, CBP had no 
means of proving this assertion.
3. ATS Pilot Had Limited Impact on the Inspection Process
    The ATS pilot for targeting mail has had limited impact due to 
USPS's difficulty in locating the mail targeted for inspection. ATS is 
intended to help CBP identify mail that might pose a high risk of 
containing narcotics or other contraband, but CBP used this system to 
target only 0.01 percent of the packages arriving each day at JFK. This 
was based on an agreement between USPS and CBP as to what USPS could 
reasonably provide to CBP on a daily basis. Even with targeting set at 
this low percentage, USPS is not able to physically locate and hand 
over all requested items to CBP. Searching through hundreds of 
thousands of pieces of mail each day to identify the targeted ones is a 
huge, labor-intensive process. Instead, if the targeted mail is in a 
large bag, USPS will provide the entire bag to CBP. CBP officers must 
then search through the bag to locate the targeted item, in addition to 
carrying out their routine inspection responsibilities.
    The limited targeting is also due to a lack of advance data on 
inbound mail for input to ATS to support the mail targeting process. 
Specifically, the data CBP uses for targeting comes from foreign post 
offices that provide the data to USPS in advance of the mail being 
transported. Not all foreign post offices provide sufficient data for 
use in ATS for targeting purposes. Further, the USPS does not have 
agreements with all foreign post offices (e.g., China) to provide this 
data in advance.
4. CBP's Chemical Analysis Process Is Problematic
    CBP's chemical analysis process for detecting illegal opioids in 
arriving suspicious air mail is problematic because of inadequate 
equipment and processes and potential hazards to workers. This process 
entails CBP officers opening the mail and inserting a hand-held device 
in a suspicious package to get a preliminary reading of the chemical 
makeup of the contents. If the reading indicates a potential prohibited 
item, the officers take a small sample and use a separate chemical 
analysis device to get a second digital reading of the chemical 
composition of the sample. Officers then forward the digital reading to 
CBP's Laboratories and Scientific Services Directorate for additional 
remote diagnostics. If the results conclusively indicate a prohibited 
item, CBP officers seize the item and prevent its import to the United 
States.
  cbp enforcement blitz has helped determine extent of air mail drug 
                           smuggling problem
    CBP managers may conduct enforcement ``blitzes''--periodic, short-
term offensive operations--to determine the risks inherent in specific 
classes or subsets of arriving international mail. CBP managers 
determine the selection criteria for such blitzes. The blitzes can help 
validate existing presumptions regarding mail provided by USPS and 
identify additional areas to focus enforcement or revenue activities.
    In January 2017, CBP conducted a 5-day blitz, Operation Mail Flex, 
to verify that USPS was being used to mail opioids to the United 
States. For this operation, CBP targeted a specific subset of arriving 
mail: Express mail from China and Hong Kong. From Operation Mail Flex, 
CBP estimated the number of pieces of express mail that arrived at JFK 
from just those 2 countries. CBP randomly examined pieces of the mail 
and seized 43 percent of the express mail packages included in its 
review. The seized packages included fentanyl shipments that 
collectively totaled 5.31 pounds. We can conclude that if CBP had 
examined the remaining universe of mail, it might have discovered and 
seized a higher number of packages possibly containing additional 
pounds of fentanyl.
    Although the results of Operation Mail Flex have largely been 
helpful in estimating the extent of illegal imports in express mail 
from China and Hong Kong, they have been inadequate in identifying 
other threats. To more fully understand the extent of the problem, CBP 
would need to regularly perform and document blitz operations on 
additional mail. CBP would then be better able to prioritize and apply 
its limited resources toward inspecting the types of international mail 
that likely contain the highest number of illegal opioids.
    To address these deficiencies, we recommended that:
  <bullet> The Executive Assistant Commissioners for Field Operations 
        and Operations Support conduct an analysis to determine the 
        additional staff, canines, X-ray scanning machines, and hand-
        held chemical analysis devices needed to adequately address the 
        threat from opioids arriving daily in the large volume of 
        international mail.
  <bullet> The Executive Assistant Commissioners for Field Operations 
        and Operations Support assign and dedicate canine teams as 
        appropriate to detect opioids at the international mail 
        facility on a daily basis.
  <bullet> The Assistant Commissioner for the Office of Information and 
        Technology (OIT) and the Executive Assistant Commissioners for 
        Field Operations and Operations Support jointly document 
        arriving international air mail received from USPS, scanned by 
        CBP, and returned to USPS.
  <bullet> The Executive Assistant Commissioners for Field Operations 
        and Operations Support update CBP's International Mail 
        Operations and Enforcement Handbook to reflect all types of 
        arriving international mail.
  <bullet> The Executive Assistant Commissioners for Field Operations 
        and Operations Support perform and document periodic ``Mail 
        Flex'' operations, including use of canine teams, to better 
        determine the size and scope of the threat inherent in specific 
        classes of mail and from specific countries.
    CBP concurred with these recommendations and planned to take a 
number of steps to address these issues. For example, CBP planned to 
conduct a cost-benefit analysis to determine the staff levels, canine 
teams, and technology needed to address the threat of illicit opioids 
in international mail at the JFK International Mail Facility (IMF). CBP 
also replaced all X-ray machines as of November 2017. CBP also planned 
to revise the International Mail Operations and Enforcement Handbook to 
reflect the current operational conditions in relation to arriving 
international mail.
   international air mail suspected of containing contraband is not 
                  inventoried or physically controlled
    Despite mail handling requirements, CBP officers responsible for 
inspecting arriving international air mail identify, but do not track 
or physically safeguard, packages suspected of containing contraband. 
CBP provides overarching guidance for its airmail inspection processes 
\5\ and standards that CBP personnel must follow when initiating and 
handling seized mail.\6\ According to CBP's International Mail 
Operations and Enforcement Handbook, and Seized Asset Management and 
Enforcement Procedures Handbook, mail items should be secured, any 
suspicious substance must be positively identified, and the substance 
must be extracted from its conveyance, weighed or counted, and placed 
in a seizure bag. Also, according to CBP's Seized Asset Management and 
Enforcement Procedures Handbook timely input of data into CBP's Seized 
Assets and Case Management System (SEACATS) is critical.
---------------------------------------------------------------------------
    \5\ International Mail Operations and Enforcement Handbook, and 
Seized Asset Management and Enforcement Procedures Handbook.
    \6\ U.S. Customs and Border Protection, Office of Field Operations, 
Fines, Penalties & Forfeitures Division, Seized Asset Management and 
Enforcement Procedures Handbook, U.S. CBP, HB 4400-01B, July 2011.
---------------------------------------------------------------------------
    However, CBP does not track a suspicious package until several days 
after the package is initially held for further review. Specifically, 
upon identifying a suspicious package, CBP officers place it on a cart 
that is subsequently relocated to a secure room. Officers take a small 
sample of the contents of the package, place it in a Fourier-Transform 
Infrared and Raman device for analysis, and submit the resulting report 
to CBP's lab for verification of the chemical contents. Given lab 
staffing constraints, at the time of our audit, CBP officers could only 
send a limited number of samples a day for chemical verification--the 
amount that available lab officials could typically turn around in a 
24-hour period.
    Not until the CBP lab provides positive confirmation of prohibited 
chemical contents is the suspicious package considered to warrant 
formal mail seizure. CBP officers still have additional time to input 
data on the seized asset into SEACATS. With this data input, the 
officers can begin to track the item.
    CBP officials do not physically control all mail suspected, but not 
yet confirmed, of containing contraband. During the entire process 
leading up to asset seizure and SEACATS data input, the suspicious 
package is not physically secured. The package remains open, stowed on 
a cart amid piles of other packages. The open mail package also is not 
placed in an evidence bag to secure the contents prior to formal 
seizure.
    Further, during the process leading up to asset seizure and SEACATS 
data input, the suspicious package is not secured from potential loss 
or damage to its contents. The physical layout of the JFK IMF inhibits 
CBP's ability to demonstrate that an identifiable person always has 
physical custody of suspicious mail. Specifically, the JFK IMF is a 
large, old, shared facility that has not been retrofitted with physical 
barriers to compartmentalize USPS and CBP operations. Similarly, there 
are no physical control points to separate international mail 
``cleared'' by CBP for delivery from ``suspect mail'' held for 
secondary inspection. The mail that USPS initially provides for 
inspection, as well as mail that CBP clears and returns to USPS, is 
stored in open carts at the JFK IMF side-by-side in the same area.
    Due to outdated equipment, CBP officials do not always include 
required documentation in the SEACATS case files on seized assets. The 
International Mail Operations and Enforcement Handbook requires X-rays 
of seized packages, which are needed to document the contents of the 
unopened package. However, according to the officers, outdated X-ray 
machines were in use at the time of our July 2017 site visit.
    To address these deficiencies, we recommended that:
  <bullet> The Assistant Commissioner for the OIT and the Executive 
        Assistant Commissioners for Field Operations and Operations 
        Support jointly establish adequate internal control processes, 
        including maintaining inventories and physically securing 
        suspicious mail that may be seized following additional review.
  <bullet> The Executive Assistant Commissioners for Field Operations 
        and Operations Support jointly update the Seized Asset 
        Management and Enforcement Procedure Handbook and the 
        International Mail Operations and Enforcement Handbook to 
        outline all of the precautions necessary to safeguard 
        suspicious mail prior to formal seizure.
    CBP concurred with these recommendations and planned to take a 
number of steps to address these issues. For example, CBP planned to 
develop an automated technical solution to maintain an accurate 
inventory of segregated international mail items that are subject for 
further scrutiny but not yet seized. CBP also planned to revise the 
International Mail Operations and Enforcement Handbook and the Seized 
Asset Management and Enforcement Procedure Handbook.
    CBP has already taken action to close 1 of the total 9 
recommendations in our report. We are in the process of reviewing the 
actions CBP has taken to implement the other 8 recommendations.
   cbp lacks necessary precautions to protect its staff from fentanyl
    Last week, we issued a management alert notifying CBP about an 
issue requiring immediate attention. During an on-going audit of CBP's 
storage of seized drugs we visited 7 permanent vaults and determined 
that the component does not adequately protect its staff from the 
dangers of accidental exposure to powerful synthetic opioids,\7\ such 
as fentanyl, because CBP has not always made available naloxone, a 
medication for treating narcotic overdose. OFO officials could not 
explain why OFO does not by policy require naloxone to treat staff in 
case of potentially lethal exposure. Officials also could not explain 
why they sometimes stored naloxone in lock-boxes at vaults, which are 
secure facilities.
---------------------------------------------------------------------------
    \7\ Examples of opioids include heroin, morphine, oxycodone, and 
fentanyl.
---------------------------------------------------------------------------
    Specifically, 7 permanent vaults we visited during fieldwork were 
missing the necessary precautions to protect CBP staff (i.e., Office of 
Field Operations (OFO) Seized Property Specialists) from opioids such 
as fentanyl. Two of the vaults did not have naloxone. The other 5 
vaults contained naloxone, but 2 of the 5 had the medication locked in 
boxes with codes. One of the 2 vaults with naloxone in a lock-box also 
contained the largest recent seizure of fentanyl in CBP history. At 
that vault, staff had taped a piece of paper bearing the code to this 
vault on the wall next to the lock-box. However, when asked to open the 
lock-box at the other vault, staff could not do so because they could 
not remember the code. If actually exposed to fentanyl, a person could 
die without prompt access to naloxone.
    This lack of access to naloxone occurred because CBP does not have 
an official policy with required standard practices for handling 
fentanyl and safeguarding personnel against exposure. Although SPS's 
use CBP's Seized Asset Management and Enforcement Procedures Handbook 
to guide daily vault operations, the handbook was last updated in July 
2011 and it does not include specific procedures for managing fentanyl. 
OFO also does not require mandatory training for its staff who 
typically come into contact with fentanyl so they understand the 
hazards and the methods to combat accidental exposure. OFO personnel 
typically take some precautionary measures when seizing suspected 
fentanyl, such as wearing personal protective equipment; not disturbing 
packaging and sending fentanyl to a laboratory for testing; and double 
bagging, sealing, and clearly labeling seized property. However, 
lacking updated guidance and training, some CBP offices have 
established their own practices for handling fentanyl.
    As of April 2019, CBP had stored about 3,500 pounds of fentanyl--up 
from 70 pounds in 2015, and OFO may store fentanyl in its permanent 
vaults for up to 60 days and, in cases of prosecution, for years. 
Without easy access to naloxone in case of exposure, CBP is 
unnecessarily jeopardizing the lives, health, and safety of its staff. 
CBP's lack of guidance and training on safely handling fentanyl further 
increases the risk of injury or death to its employees.
    We recommended that CBP include guidance in its handbook for 
handling and storing opioids, which at a minimum should include a 
requirement to make naloxone available to all employees and training in 
administering naloxone. CBP concurred with our recommendation and 
issued a memo on June 24, 2019, directing that all OFO permanent vaults 
be equipped with naloxone nasal spray kits and lock boxes and that 
SPS's be trained on the proper usage of the spray, an understanding of 
fentanyl, and methods to combat accidental exposure. We consider these 
actions responsive to the recommendation and will close the 
recommendation after CBP confirms distribution of materials to all 62 
vaults, confirms personnel have received training, includes training at 
the Federal Law Enforcement Training Centers as part of the seized 
property basic course, and updates guidance in its handbook.
   on-going oig work related to interdiction of dangerous substances
    The OIG has a number of on-going audits related to the Department's 
ability to interdict dangerous substances, like fentanyl. We will be 
reporting on these issues later this year. These audits include:
  <bullet> An on-going audit to determine whether DHS effectively 
        transports, stores, and destroys seized illicit drugs.
  <bullet> Two audits covering the Department's drug interdiction 
        technology. In the first audit, we are assessing to what extent 
        CBP's Office of Field Operations uses small-scale chemical 
        screening devices at ports of entry to identify fentanyl and 
        other illicit narcotics. In the second audit, we will determine 
        to what extent the Department ensures components are 
        coordinating the procurement and use of small-scale drug 
        interdiction technology.
  <bullet> Our office is also conducting a follow-up audit of CBP's 
        physical security and international mail inspection processes 
        at JFK to determine whether CBP air mail inspection processes 
        at JFK are adequate and to identify impediments to effective 
        screening, tracking, and safeguarding of incoming mail.
    Mr. Chairman and Ms. Chairwoman, this concludes my testimony. I am 
happy to answer any questions you or other Members of the subcommittees 
may have.

    Mr. Rose. Thank you for your testimony, Ms. McCauley.
    Before we continue, I do ask unanimous consent that the 
gentlelady from Illinois, Ms. Underwood, a Member of the 
committee, be permitted to sit and question the witnesses at 
today's joint subcommittee hearing.
    Without objection, so ordered.
    I now recognize Ms. Brennan to summarize her statement for 
5 minutes.
    Thank you again.

 STATEMENT OF BRIDGET G. BRENNAN, SPECIAL NARCOTICS PROSECUTOR 
                    FOR THE CITY OF NEW YORK

    Ms. Brennan. Good morning. And thank you, Chairman Rose, 
Ranking Member Walker, Chairwoman Rice, and Members of the 
Subcommittees on Intelligence and Counterterrorism and Border 
Security, Facilitation, and Operations, for inviting me to this 
critically important hearing. It is critically important 
because of the devastating impact of fentanyl on New York City 
and on our country.
    I am New York City's special narcotics prosecutor. My 
office is unique in its exclusive focus on felony narcotics 
prosecution in the 5 boroughs of New York City. I am appointed 
by the city's 5 elected DAs and prosecute cases under New York 
State law.
    As head of the office for more than 20 years, I have 
grappled with each phase of the opioid crisis, from the 
overprescribing of pain medication to surging supplies of 
heroin, lethal fentanyl, and now fentanyl analogues.
    New York is a major regional narcotics trafficking hub, and 
so my office targets the importation and distribution of 
fentanyl, heroin, cocaine, and addictive pills. We work with 
local, State, and Federal law enforcement partners to reduce 
the supply of drugs at the highest levels.
    The many sources of deadly opioids paired with escalating 
volume and toxicity present daunting challenges. Mexican 
cartels manufacture the fentanyl using chemical components 
obtained from Chinese laboratories. Chinese labs are also 
primarily responsible for the manufacturing of fentanyl 
analogues.
    Local prosecutors cannot effectively address this issue 
alone. We rely on Federal leadership and strategies to prevent 
the lethal drugs from saturating our vulnerable communities. I 
commend the bipartisan efforts of this House committee to hold 
governments which regulate producers of fentanyl responsible 
for the deaths of tens of thousands of Americans each year.
    A decade ago, as the prescription opioid epidemic emerged 
in New York, we observed a simultaneous rise in large-scale 
heroin packaging operations in the Bronx and Upper Manhattan. 
Heroin sold on the streets was purer and more plentiful than 
ever before. We began to intercept truckloads containing 
heroin. Intelligence linked these shipments to Mexico-based 
operations.
    Soon, in 2016, bulk shipments of illicit fentanyl began 
turning up alongside those loads of heroin. Local drug networks 
had not requested the fentanyl and were not necessarily aware 
they were receiving it.
    At the street level, cheap fentanyl was sold 
interchangeably with more expensive heroin, driving up profits. 
Overdose deaths skyrocketed in New York City, increasing by 51 
percent 2016 over 2015. Last year, nearly 1,500 people died of 
drug overdose, more than half with fentanyl and fentanyl 
analogues as contributing factors.
    Investigations by my office have interdicted 4 tons of 
narcotics in the past 5 years, and fentanyl has grown from a 
sliver of our drug seizures to a significant portion. In our 
single largest fentanyl interdiction, my office, the DEA, and 
the New York City Police Department seized 213 pounds of 
narcotics in a nondescript Queens apartment building, including 
140 pounds of fentanyl. A married couple linked to a Mexican 
source of supply was prosecuted.
    Fentanyl and fentanyl analogues have thoroughly saturated 
the black market for drugs, mixed into heroin, cocaine, and 
other substances or pressed into counterfeit prescription 
pills. And that source has spread around the East Coast into 
Ohio and Pennsylvania.
    The influx of fentanyl analogues is the next wave in this 
epidemic. Thus far, roughly 900 people have died of overdoses 
involving analogues in New York City since the beginning of 
2017. These deaths have steadily increased.
    Yet the majority of fentanyl analogues are unregulated in 
New York State. More than a dozen different types have been 
identified in the city, and most trace back to China. Most are 
sold on the dark web and shipped in small packages through 
parcel delivery services and the U.S. mail, as you have heard. 
We have also seized analogues that are mixed into shipments 
from Mexico, but that is few and far between.
    Given the piecemeal nature of our regulation in New York 
State, it is increasingly difficult for law enforcement to 
seize the dangerous compounds and disrupt organizations dealing 
them. My office is unable to obtain search warrants or make 
arrests in cases involving uncontrolled fentanyl analogues, 
even when deaths have resulted.
    Our police labs and medical examiners also struggle to 
detect analogues. This week, we announced a grand jury report 
on the subject of analogues which recommended that New York 
State adopt the Federal emergency schedule-type provision, 
which is now being considered by Congress.
    Leveraging our relationships to shut down the supply chain 
for these dangerous substances before they ever reach our soil 
must be a priority. We must do all we can to protect vulnerable 
people suffering from addiction from ever-more-lethal 
substances on the black market.
    Thank you for the opportunity to testify today. I look 
forward to answering your questions and to future collaboration 
on this urgent problem. Thank you.
    [The prepared statement of Ms. Brennan follows:]
                Prepared Statement of Bridget G. Brennan
                             July 25, 2019
                              introduction
    Thank you, Chairman Rose, Ranking Member Walker, and the 
Subcommittee on Intelligence and Counterterrorism, Chairwoman Rice, 
Ranking Member Higgins, and the Subcommittee on Border Security, 
Facilitation, and Operations for inviting me to testify at this 
critically important hearing.
    My name is Bridget Brennan and I am special narcotics prosecutor 
for the city of New York. The Office of the Special Narcotics 
Prosecutor (SNP) is unique in its exclusive focus on felony narcotics 
in the 5 counties that comprise New York City. Narcotics smuggled into 
New York City are distributed throughout the East Coast and as far west 
as Pennsylvania and Ohio. As a result we target the importation and 
both regional and local distribution of fentanyl, heroin, cocaine, 
addictive pills, and related crimes. We work with local, State, and 
Federal law enforcement and prosecute cases under New York State law. I 
am appointed by the city's 5 elected district attorneys.
    As head of the office for more than 20 years, I have grappled with 
each phase of the opioid crisis, first the overprescribing of opioid 
medications, then importation of heroin in volume and purity never seen 
before, next the emergence of lethal fentanyl and finally the 
proliferation of fentanyl analogs. Our goal is to reduce the supply of 
deadly drugs at the top of the distribution chain. My office embraces a 
strategic supply reduction approach and has long been a proponent of 
prevention and treatment as an alternative to incarceration.
    Only the first wave of the crisis, the flood of addictive 
prescription drugs, involved drugs manufactured in the United States. 
Considering the many sources of deadly narcotics drugs, and the 
escalating volume and toxicity of opioids, our work has been 
challenging. Facing foreign sources of supply and unprecedented volume, 
a local prosecutor cannot effectively address this crisis without 
substantial assistance and from the Federal Government.
    I commend the bipartisan efforts of the Committee on Homeland 
Security to hold the governments which regulate suppliers of lethal 
fentanyl and fentanyl analogs accountable for the deaths of tens of 
thousands of Americans each year. I welcome the opportunity to describe 
the difficulties we face trying to prevent the distribution of fentanyl 
and analogs, and how you can assist us.
               fentanyl and the role of mexico and china
    I will describe our experience with fentanyl and fentanyl analogs, 
which we have observed enter the United States from different countries 
and via different transport routes.
    Mexican cartels manufacture illicit fentanyl using chemical 
components obtained from Chinese laboratories. Chinese laboratories are 
also primarily responsible for the manufacturing of fentanyl analogs, 
which are similar to fentanyl but with slightly modified chemical 
compositions. Some fentanyl analogs are considerably more potent than 
fentanyl. Opportunistic drug producers profit from an unprecedented 
epidemic of opioid addiction in the United States.
    A decade ago, when my office first saw the prescription opioid 
epidemic emerge in New York City, we observed a simultaneous rise in 
the number of large-scale heroin packaging operations in the Bronx and 
Upper Manhattan. They were situated in inconspicuous apartment 
buildings, employed shifts of workers around the clock, and packaged 
tens of thousands of tiny envelopes of heroin for distribution 
throughout the region. We began intercepting truckloads containing 
dozens of kilograms of heroin in the greater metropolitan area. 
Intelligence linked these shipments to Mexico-based organizations. The 
heroin mills were run by local criminal organizations.
    In 2016, bulk shipments of illicit fentanyl began turning up in 
tractor trailers and packaging mills controlled by the same criminal 
organizations, mixed in with loads of heroin. Local drug distributors 
had not requested fentanyl, and were not necessarily aware they were 
receiving it. Fentanyl is 50 times more potent than heroin, so one 
kilogram can produce many more bags for individual sale. It is cheaper 
and easier to produce than heroin because it is a chemically-based 
synthetic, unlike heroin which is organic. Sold interchangeably with 
more expensive heroin at the street level, the profit margin for 
fentanyl is substantially higher than heroin. Because it is also more 
lethal, and often mixed in with heroin and other drugs, overdose deaths 
have skyrocketed in New York City, increasing by 51 percent in 2016 
over 2015.
    Investigations by my office have interdicted 4 tons of narcotics in 
the past 5 years, and we have seen fentanyl grow from a sliver of our 
drug seizures to a significant portion. In 2016, fentanyl accounted for 
just 2 percent of drugs we seized. By 2018, fentanyl was present in 40 
percent of narcotics recovered. It should be noted that we rarely, 
interdict medicinal fentanyl manufactured in the United States. We have 
seized hundreds of pounds of illicit fentanyl in recent years, and most 
can be traced back to Mexico.
    To give you an idea of what we see, I will describe our single 
largest interdiction of fentanyl. In August 2017, my office, the U.S. 
Drug Enforcement Administration (DEA) and the New York City Police 
Department (NYPD) seized the largest amount of fentanyl recovered in 
the United States at that time (since surpassed by U.S. Customs and 
Border Protection in Arizona). A total of 97 kilograms of narcotics 
(213 pounds) were stashed in a inconspicuous apartment in Kew Gardens, 
Queens, including 64 kilograms of fentanyl (over 140 pounds) and 
quantities of heroin, cocaine, and other substances. A married couple 
linked to a Mexican source of supply was prosecuted.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    At present, fentanyl has thoroughly saturated the black market for 
drugs in New York City. More often than not, drug users in New York 
City are unaware of the contents of the narcotics they are purchasing. 
Fentanyl and fentanyl analogs are mixed into heroin, cocaine, and other 
substances, or pressed into counterfeit prescription pills and sold as 
oxycodone and Xanax.
    The bulk of the fentanyl we see in New York City is transported in 
vehicles across the Southwest Border, and cross-country to New York 
City or the surrounding area. The further fentanyl gets from its 
source, the more integrated it becomes in local black markets, and the 
greater the risk of overdose and death. We need your help to prevent it 
from ever reaching us. I urge the Committee on Homeland Security to 
support effective measures to prevent precursor chemicals from China or 
other countries, which are necessary to manufacture fentanyl, from 
being obtained in Mexico. I further urge the committee to support 
adequate resources to allow for better detection of fentanyl concealed 
in vehicles at border crossings into the United States.
                new challenges posed by fentanyl analogs
    An influx of fentanyl analogs is the latest wave in the opioid 
epidemic. Fentanyl analogs are readily available through the Dark Web 
and are sold by street-level dealers. Unlike fentanyl and heroin, 
fentanyl analogs are typically shipped in small packages via 
international parcel delivery services and the U.S. Mail, passing 
through John F. Kennedy International Airport and other busy 
transshipment points. More than a dozen different analogs have been 
identified in New York City, and most are traced back to China, 
although they may be shipped to a distributor intermediary in another 
country before reaching the United States.
    We have most frequently seen a pattern of low-level narcotics 
organizations obtaining the analogs and selling them alone mixed with a 
dilutant, or selling them mixed with heroin or fentanyl. We have also 
seized analogs alongside fentanyl and heroin in shipments transported 
overland from Mexico.
    The analogs are typically much higher in purity than bulk fentanyl 
coming from Mexico. As a result, not only can a minute amount cause 
death, but police laboratories and medical examiners must recalibrate 
their equipment and obtain new standards for comparison to detect these 
substances which appear in extremely low concentrations. This pertains 
to laboratory tests involving drugs seized in investigations as well as 
post-mortem investigations by coroners and medical examiners.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Approximately 900 people died of overdoses involving fentanyl 
analogs in New York City since the beginning of 2017. Fentanyl analogs 
are currently present in approximately 40 percent of all overdose 
deaths resulting from a non-prescription opioid. These deaths have been 
steadily increasing.
    Yet the majority of fentanyl analogs are legal to possess and sell 
in New York State, where regulation has been piecemeal. As a result, 
foreign laboratories need only tweak the chemical composition to create 
new analogs and evade enforcement.
    The results are predictable. In 2018, the New York State 
Legislature proscribed certain synthetic opioids, including the analog 
acetyl fentanyl, which is responsible for the highest number of deaths. 
However, new variations continue to emerge. For example, since the fall 
of 2018 valeryl fentanyl has been linked to dozens of fatalities, yet 
still remains legal to possess.
    Currently, if unregulated, it is difficult for local law 
enforcement agencies to intercept these dangerous compounds and disrupt 
organizations dealing them. My office is unable to obtain search 
warrants or make arrests in cases involving uncontrolled fentanyl 
analogs, even when deaths have resulted, unless controlled substances 
are also involved.
    Earlier this week, my office announced a New York State Grand Jury 
Report on the subject of fentanyl analogs. The report built upon joint 
investigations with the NYPD, the DEA, the New York Drug Enforcement 
Task Force (NYDETF) and other partners. The Grand Jury heard evidence 
regarding lack of regulation of these substances and the overdoses and 
deaths associated with them. The Report (attached to my testimony) 
recommends that the New York State Legislature prohibit all fentanyl 
analogs and recommends that additional funding be allocated for police 
labs and the offices of medical examiners.
    I urge Congress to pass legislation permanently banning all 
fentanyl analogs, which are currently the subject of an emergency order 
set to expire in February 2020. States are reliant upon the Federal 
Government to effectively control the influx of these dangerous 
substances from foreign sources. I am hopeful that if Congress 
permanently bans all forms of fentanyl analogs on the Federal level, 
States, including New York, will follow suit.
                               conclusion
    Sadly, overdose is the leading cause of accidental death across the 
country. In New York City, overdoses claim more lives than homicides 
and car crashes combined. Overdose killed more than 6,000 people in the 
past 5 years in the city, with the current rate just below 1,500 deaths 
per year. Fentanyl and fentanyl analogs are now involved in well over 
half of these deaths. While overdose rates are stabilizing Nationally, 
the lethal toll remains unacceptably high and some of our most 
vulnerable communities have not seen their overdose rates decline.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    All of the fentanyl and analogs which are responsible for a high 
percentage of deaths are smuggled into the United States from countries 
with whom we have robust trade relationships. Additional resources for 
border interdictions are crucial. Leveraging our relationships to shut 
down the supply chain for these dangerous substances before they ever 
reach our soil should be a priority. We must do all we can to protect 
vulnerable people suffering from addiction from the ever more lethal 
substances on the black market.
    Thank you for the opportunity to testify today. I look forward to 
answering your questions and to future collaborations with Members of 
the Subcommittee on Intelligence and Counterterrorism and the 
Subcommittee on Border Security, Facilitation, and Operations to 
address this urgent problem.
             Attachment.--New York State Grand Jury Report

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Rose. Thank you for your testimony, Ms. Brennan.
    I now recognize Dr. Pardo to summarize his statement for 5 
minutes.

 STATEMENT OF BRYCE PARDO, PH.D., ASSOCIATE POLICY RESEARCHER, 
                        RAND CORPORATION

    Mr. Pardo. Chairs Rose and Rice, Ranking Members Walker and 
Higgins, and other distinguished Members of the subcommittees, 
thank you very much for the opportunity to testify before you 
today.
    For 30 years, the RAND Drug Policy Research Center has 
worked to help decision makers in the United States and 
throughout the world understand and address issues involving 
alcohol and other drugs.
    I was asked to speak to you about the on-going developments 
related to the illicit importation and supply of synthetic 
opioids. First, I will briefly describe the emergence of these 
drugs. I will then focus on elements related to their supply. 
Finally, I will conclude with some policy options aimed at the 
challenges that they pose.
    The opioid crisis was initially fueled by oversupply of 
prescription painkillers. Yet, according to provisional 
mortality data, by 2018, synthetic opioids such as fentanyl 
were involved in approximately two-thirds of the almost 50,000 
opioid overdose deaths that year and are now twice as prevalent 
as fatal overdoses involving heroin or prescription opioids.
    Initially sold mixed with powered heroin and later pressed 
into counterfeit prescription tablets, exposing many 
unsuspecting individuals, synthetic opioids may now be entering 
non-opioid drug markets. While half of the heroin-involved 
deaths in 2017 included synthetic opioids, approximately an 
equal share of fatal cocaine overdoses did as well.
    An examination of available data shows that this problem is 
geographically concentrated in the Eastern half of the United 
States. The 10 States with the highest synthetic opioid 
overdose deaths in 2017 compromised 12 percent of the country's 
population yet made up 35 percent of all reported fatal 
overdoses involving synthetic opioids. This concentration 
suggests that the overdose crisis could get worse should these 
substances reach major illicit opioid markets west of the 
Mississippi River.
    The upward trend in overdoses is mirrored by supply-side 
indicators. The number of fentanyl seizures submitted by State 
and local authorities jumped from about 1,000 in 2013 to more 
than 59,000 in 2017. Similarly, Customs and Border Protection 
seized nearly 1,000 kilograms of fentanyl in fiscal year 2018, 
up from just 1 kilogram in fiscal year 2013.
    Those seizures of drugs containing fentanyl near or at the 
Southwest Border significantly outweighed those at mail or 
express consignment carrier facilities. Calculations in my 
written statement show that, after adjusting for purity, the 
majority of fentanyl seized by CBP arrives by air, mostly 
originating from China. Mexico is a source of illicitly 
imported fentanyl, yet many of the precursors or finished 
products trafficked by these groups also originate in China.
    China is an important source of many legitimate chemicals 
and pharmaceutical inputs. Today, it is the world's largest 
exporter of active pharmaceutical ingredients and a leading 
exporter of chemicals for industrial and commercial use. 
However, economic growth in these sectors has outpaced the 
central government's ability to monitor producers.
    As detailed in my written statement, there are several 
factors that allow manufacturers to operate with impunity. 
First, regulatory design and enforcement is scattered across a 
handful of agencies, creating gaps in oversight. Second, 
misaligned incentives between those who write the rules and 
those who enforce them allow for regulatory capture and 
corruption. Third, the central government's enforcement 
capacity is inadequate relative to the number of producers and 
distributors. Such conditions create a favorable environment 
for firms to operate in illegal margins, allowing them to 
produce and export synthetic drugs to global markets.
    Considering the future, there are several things that 
Congress and Federal authorities could do. However, given the 
scope of this problem and the new challenges it presents, 
Congress must look beyond available drug policy tools.
    First, given the lack of information about supply and 
demand, there is dire need to improve how agencies collect and 
analyze drug market indicators such as prevalence, overdoses, 
and drug seizures. Our drug policy data collection and analysis 
systems are not well-suited to these new drugs. This is 
crucial, considering the need for early warning systems, to 
safeguard communities that have not been exposed to synthetic 
opioids.
    Second, Congress could continue to encourage Federal 
authorities to work with Chinese counterparts to strengthen 
that country's regulatory and enforcement capabilities. This 
includes constructively engaging China at relevant multilateral 
institutions, building greater bilateral research and technical 
exchanges, and streamlining information sharing. Congress could 
consider appropriating additional resources to U.S. authorities 
to that end.
    Third, there is need to better understand and target 
producers, importers, and high-level distributors both in the 
United States and in China. Building cases and sharing actual 
information with Chinese authorities are needed to effectively 
prosecute those who flaunt Chinese law. Greater research is 
needed to understand decision-making and operational processes 
of importers so as to disrupt and detour on-line sourcing and 
distribution by individuals in the United States.
    Last and most importantly, there is need to strengthen 
Federal, State, and local efforts aimed at reducing overdoses 
and demand for opioids. This includes expanding pharmacological 
treatments covered by private and public health insurance, 
subsidizing the cost of medication therapies for those who 
cannot afford them, and reviewing and reducing regulatory 
barriers on their provision.
    The arrival of illicitly-manufactured synthetic opioids 
creates uncertainty in illicit drug markets, raising the risk 
of overdose. These substances are changing the drug policy 
landscape and stretching our ability to respond effectively. 
Decision makers will need to consider new challenges presented 
by fentanyl in order to stem the rising tide in overdoses.
    Thank you, and I look forward to questions.
    [The prepared statement of Mr. Pardo follows:]
               Prepared Statement of Bryce Pardo \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of the RAND Corporation or any of the sponsors of its research.
    \2\ The RAND Corporation is a research organization that develops 
solutions to public policy challenges to help make communities 
throughout the world safer and more secure, healthier, and more 
prosperous. RAND is nonprofit, nonpartisan, and committed to the public 
interest.
---------------------------------------------------------------------------
                             July 25, 2019
    Chairman Rose, Chairwoman Rice, Ranking Member Walker, Ranking 
Member Higgins, and other distinguished Members of the Subcommittee on 
Intelligence and Counterterrorism and Subcommittee on Border Security, 
Facilitation, and Operations, thank you very much for the opportunity 
to testify before you today. For 30 years, the RAND Drug Policy 
Research Center has worked to help decision makers in the United States 
and throughout the world address issues involving alcohol and other 
drugs. The center brings an objective and data-driven perspective to 
this often emotional and fractious policy arena. I was asked to speak 
to you today about on-going developments related to the current opioid 
crisis in the United States, focusing on some of the research we at 
RAND are doing to better understand the illicit supply of fentanyl and 
other synthetic opioids.
    The introduction of illicitly-manufactured synthetic opioids to 
U.S. drug markets presents new challenges for contemporary drug policy. 
The potency of synthetic opioids raises the risk to those who use drugs 
and challenges first responders. In addition, the development of novel 
opioids that fall outside existing drug controls impedes regulatory 
efforts, and the ability with which these substances can be produced 
and shipped with ease complicates traditional supply reduction efforts.
    Today, I will begin briefly describing our country's on-going 
opioid overdose crisis. Understanding recent developments and the 
shifting supply of opioids is critical to developing effective policy 
responses. I will then describe the emergence of synthetic opioids and 
the harms they generate. Given the topic of this hearing, I will focus 
most of my testimony on illicit imports of fentanyl and other synthetic 
opioids. Although most of these substances reportedly come from China 
and Mexico, many aspects of supply and distribution remain unclear. 
That said, China's export-led economic strategy and lack of regulatory 
oversight have created favorable conditions for the mass production and 
exportation of inexpensive synthetic opioids and related chemicals. 
Similarly, Mexican drug trafficking organizations might view fentanyl 
as an attractive, cheaper alternative to heroin. I conclude with some 
policy options going forward, aimed at the new challenges posed by 
these substances.
            arrival of synthetic opioids to illicit markets
    The drivers behind overdose deaths in the United States have 
changed in the last 10 years. Although the overdose crisis was 
initially fueled by oversupply of prescription painkillers, such as 
oxycodone and hydrocodone, by 2018, synthetic opioids, such as 
fentanyl, were involved in approximately two-thirds of all opioid 
overdose deaths.\3\ While diversion of prescription fentanyl, such as 
transdermal patches and transmucosal lozenges, has been documented,\4\ 
today's problem largely comes from illicitly manufactured synthetic 
opioid powders, particularly fentanyl.\5\ Unlike traditional street-
sourced opioids, such as heroin or diverted prescription painkillers, 
synthetic opioids are often much more potent. Some of these chemicals 
are active in the tens of micrograms,\6\ making precise dosing very 
difficult without sophisticated equipment. As fentanyl permeates U.S. 
markets, so does the risk of fatal overdose.
---------------------------------------------------------------------------
    \3\ F.B. Ahmad, L.A. Escobedo, L.M. Rossen, M.R. Spencer, M. 
Warner, and P. Sutton, ``Provisional Drug Overdose Death Counts,'' 
National Center for Health Statistics, 2019. As of July 19, 2019: 
https://www.cdc.gov/nchs/nvss/vsrr/drug-overdose-data.htm.
    \4\ J. Kuhlman, R. McCaulley, T.J. Valouch, and G.S. Behonick, 
``Fentanyl Use, Misuse, and Abuse: A Summary of 23 Postmortem Cases, 
Journal of Analytical Toxicology, Vol. 27, No. 7, 2003, pp. 499-504.
    \5\ M. Spencer, M. Warner, B.A. Bastian, J.P. Trinidad, and H. 
Hedegaard, ``Drug Overdose Deaths Involving Fentanyl,'' National Vital 
Statistics Reports, Vol. 68, No. 3, 2019; Drug Enforcement 
Administration (DEA), 2018 National Drug Threat Assessment, 
Springfield, Va., DEA-DCT-DIR-032-18, October 2018b; R. Matthew 
Gladden, Pedro Martinez, and Puja Seth, ``Fentanyl Law Enforcement 
Submissions and Increases in Synthetic Opioid-Involved Overdose 
Deaths--27 States, 2013-2014,'' Morbidity and Mortality Weekly Report, 
Vol. 65, No. 33, 2016, pp. 837-843.
    \6\ According to the European Monitoring Centre for Drugs and Drug 
Addiction, the lethal dose of ingested fentanyl for those without 
opioid tolerance is approximately 2 milligrams (2,000 micrograms), 
roughly the amount of 2 grains of salt. See European Monitoring Centre 
for Drugs and Drug Addiction, ``Fentanyl Drug Profile,'' webpage, 2015. 
As of July 19, 2019: http://www.emcdda.europa.eu/publications/drug-
profiles/fentanyl#pharmacology. Transdermal patches containing fentanyl 
release 12.5 to 100 micrograms per hour, depending on the prescription.
---------------------------------------------------------------------------
    Provisional numbers from the Centers for Disease Control and 
Prevention demonstrate a slowdown in total overdose deaths in recent 
years. Still, today's drug overdose crisis, which now claims some 
70,000 lives a year, surpasses major public health epidemics of prior 
generations, including the HIV/AIDS epidemic, which peaked at 50,000 
deaths a year in the mid-1990's.\7\ And while the annual number of 
opioid-involved deaths remained steady at just under 50,000 in each 
2017 and 2018,\8\ the majority of these deaths involved synthetic 
opioids. In 2018 this amounted to double the number of overdoses from 
heroin or prescription opioids.\9\ Overall, overdose deaths involving 
synthetic opioids have jumped tenfold between 2013 and 2018.
---------------------------------------------------------------------------
    \7\ Holly Hedegaard, Arialdi M. Minio, and Margaret Warner, ``Drug 
Overdose Deaths in the United States 1999-2017,'' NHCS Data Brief, No. 
329, November 2018. As of July 19, 2019: https://www.cdc.gov/nchs/data/
databriefs/db329-h.pdf Centers for Disease Control and Prevention, 
``Thirty Years of HIV--1981-2011,'' Morbidity and Mortality Weekly 
Report, Vol. 60, No. 21, June 3 2011.
    \8\ Ahmad et al., 2019.
    \9\ Ahmad et al., 2019.
---------------------------------------------------------------------------
    In addition, overdose figures and law enforcement reports suggest 
that synthetic opioids, initially sold as powdered heroin or 
prescription tablets, may be entering non-opioid drug markets.\10\ 
While half of heroin-involved deaths in 2017 included synthetic 
opioids, approximately an equal share of fatal cocaine overdoses did as 
well. Figure 1 shows national trends regarding the presence of 
synthetic opioids among fatal overdoses across several drug categories.
---------------------------------------------------------------------------
    \10\ DEA, Special Testing and Research Laboratory, Emerging Threat 
Report, Annual 2017, Springfield, Va., 2018a.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Examination of overdose fatalities by State shows that the 
synthetic opioid problem is concentrated in the eastern half of the 
United States.\11\ The 10 States with highest synthetic opioid overdose 
death rates in 2017 contain only 12 percent of the country's population 
yet comprised 35 percent of the 28,500 fatal overdoses involving 
synthetic opioids. Ohio's share alone was almost 12.5 percent, although 
the State only has about 3.5 percent of the country's total population.
---------------------------------------------------------------------------
    \11\ Michael Zoorob, ``Fentanyl Shock: The Changing Geography of 
Overdose in the United States,'' International Journal of Drug Policy, 
Vol. 70, 2019, pp. 40-46.
---------------------------------------------------------------------------
    In several acutely affected States, fatal overdoses involving 
heroin free of synthetic opioids have continued to decline, only to be 
replaced by a rising number of overdoses involving synthetic opioids. 
For example, in Ohio, the total number of deaths mentioning heroin 
actually fell in 2017, for the first time since 2009; few heroin 
overdose deaths in Ohio do not involve synthetic opioids as well. In 
New Hampshire, only one-quarter of heroin overdoses do not involve 
synthetic opioids and total heroin overdoses have fallen dramatically, 
suggesting that illicit drug markets in that State may be far along in 
the transition to fentanyl or other synthetic opioids.
    An examination of State-level drug seizures shows similar spatial 
and temporal patterns. In States acutely affected by synthetic opioids, 
law enforcement seizures of heroin have been declining since around 
2014. The same cannot be said for seizures of fentanyl and related 
substances. An examination of data from U.S. Drug Enforcement 
Administration's National Forensic Laboratory Information System 
(NFLIS) through 2017 suggests that several regional markets appear to 
be transitioning toward synthetic opioids and away from heroin. The 
overdose crisis could worsen if synthetic opioids enter major illicit 
opioid markets west of the Mississippi river.\12\
---------------------------------------------------------------------------
    \12\ For example, recent spikes in fentanyl-involved overdose 
deaths in San Francsisco, California may be an early indicator of such 
expansion. See Erin Allday, ``Fentanyl Rising as Killer in San 
Francisco--57 Dead in a Year,'' San Franscisco Chronicle, June 23, 
2019. As of July 19, 2019: https://www.sfchronicle.com/health/article/
Fentanyl-rising-as-killer-in-San-Francisco-57-14030821.php?psid=dlc8z.
---------------------------------------------------------------------------
                  shifting supply of synthetic opioids
    The country's upward trend in synthetic opioid overdoses is 
mirrored by the trend in drug seizures. U.S. Customs and Border 
Protection (CBP) seized approximately 1 kilogram of fentanyl in fiscal 
year 2013; by fiscal year 2018, CBP seized nearly 1,000 kilograms.\13\ 
Likewise, reports from NFLIS show a sharp increase in the number of 
seizures containing fentanyl or fentanyl analogues submitted by State 
and local drug laboratories. Although these increases may be partially 
explained by changes in law enforcement procedures or priorities, the 
number of fentanyl seizures submitted to NFLIS also jumped from about 
1,000 in 2013 to more than 59,000 in 2017.\14\ State-level analysis 
shows a strong correlation between the number of law enforcement drug 
seizure exhibits containing fentanyl or fentanyl analogues and reported 
synthetic opioid overdose deaths.\15\
---------------------------------------------------------------------------
    \13\ U.S. Customs and Border Protection, CBP Enforcement 
Statistics, Washington, DC, 2019. These seizures are not adjusted for 
purity and reflect the gross total weight. It is important to adjust 
seizures for purity, as Federal law enforcement has noted the disparity 
in purity of seizures originating from China, which are nearly pure, 
versus those originating from Mexico, which are often of low purity.
    \14\ DEA. 2018b.
    \15\ Zoorob, 2019.
---------------------------------------------------------------------------
    In addition to the rise in reports of fentanyl seized in domestic 
drug markets, DEA has noted increases in the number of novel synthetic 
opioids. According to DEA's Emerging Threat Reports, 10 synthetic 
opioids were seized and identified for the first time in 2017, followed 
by 7 in 2018.\16\ These chemicals were previously unknown in U.S. drug 
markets. Even though producers continue to manufacture new substances 
and the overall mix of analogues found in markets changes over time, 
fentanyl remains the dominant synthetic opioid reported in seizure 
reports and overdose death certificates.
---------------------------------------------------------------------------
    \16\ DEA, Special Testing and Research Laboratory, 2018a; DEA, 
Special Testing and Research Laboratory, 2019.
---------------------------------------------------------------------------
    This is not the first time the United States has experienced an 
outbreak of illicitly manufactured fentanyl in drug markets. During a 
brief period in the mid-2000's, illicitly manufactured fentanyl 
appeared in major heroin markets in the Midwest and mid-Atlantic, 
claiming about 1,000 lives.\17\ Federal and local response was swift, 
expanding access to naloxone and seizing product from the street. In 
May 2006, Mexican law enforcement and the DEA identified and closed the 
illicit manufacturing operation in Toluca, Mexico.\18\ Illicitly 
manufactured fentanyl would not return to drug markets until late 2013.
---------------------------------------------------------------------------
    \17\ Centers for Disease Control and Prevention, 
``Nonpharmaceutical Fentanyl-Related Deaths--Multiple States, April 
2005-March 2007,'' Morbidity and Mortality Weekly Report, Vol. 57, No. 
29, July 25, 2008.
    \18\ DEA, National Drug Intelligence Center, Fentanyl: Situation 
Report, Springfield, Va., SR-000001, June 5, 2006.
---------------------------------------------------------------------------
    However, much has changed since the closure of the lab in Toluca. 
Law enforcement in the United States and Canada report that most 
synthetic opioids and precursors originate not from a single 
clandestine source, but from what could be many semi-legitimate 
manufacturers and vendors, most of whom are in China.\19\ Chinese 
suppliers ship these substances via the international postal system and 
private express consignment carriers, such as FedEx and DHL, as well as 
by cargo.\20\ According to DEA, Mexican drug traffickers are another 
major source.\21\ Given that drug trafficking organizations in Mexico 
have a history of importing methamphetamine precursors from China,\22\ 
it would appear that they are doing the same with fentanyl and fentanyl 
precursors. Regardless of their source, nearly all of today's illicitly 
manufactured synthetic opioids are imported. DEA last reported a 
seizure of a clandestine fentanyl laboratory in the United States 
almost 15 years ago.\23\
---------------------------------------------------------------------------
    \19\ C. Bairns, ``Charges to Be Laid Involving Fentanyl Shipments 
from China: RCMP,'' Globe and Mail, September 18, 2017; U.S. Drug 
Enforcement Administration, Counterfeit Prescription Pills Containing 
Fentanyls: A Global Threat, Springfield, Va., 2016.
    \20\ U.S. Senate, Committee on Homeland Security and Governmental 
Affairs, Permanent Subcommittee on Investigations, Combatting the 
Opioid Crisis: Exploiting Vulnerabilities in International Mail, 
Washington, DC, 2018; CBP, ``Philadelphia CBP Seizes Nearly $1.7 
Million in Fentanyl Shipped from China,'' press release, June 28, 2018. 
As of July 19, 2019: https://www.cbp.gov/newsroom/local-media-release/
philadelphia-cbp-seizes-nearly-17-million-fentanyl-shipped-china.
    \21\ DEA, 2018b.
    \22\ S. O'Connor, Meth Precursor Chemicals from China: Implications 
for the United States, Washington, DC: U.S.-China Economic and Security 
Review Commission, 2016.
    \23\ DEA, 2006.
---------------------------------------------------------------------------
    Seizure data at ports of entry offer some insights into the 
dimensions of illicit imports. CBP reports seizing synthetic opioids, 
including fentanyl, at land points of entry and checkpoints on the 
Southwest Border, as well as at mail and express consignment facilities 
and other air ports of entry. Table 1 shows that in fiscal year 2018, 
seizures of fentanyl near or at the border ports of entry significantly 
outweighed those at mail and express consignment carrier facilities. 
However, after adjusting for purity, almost 70 percent of fentanyl 
seized by CBP in fiscal year 2018 arrived by air, mostly at mail and 
express consignment carrier facilities. Analysis of fiscal year 2017 
seizure data reports a similar breakdown.\24\ Law enforcement and 
Congressional investigations have suggested that many of the packages 
at mail and express consignment facilities originate from China.\25\ If 
CBP seizures represent the true nature of trafficking patterns, then 
these preliminary calculations support law enforcement's conclusion 
that China is an important source country of illicitly manufactured 
synthetic opioids.
---------------------------------------------------------------------------
    \24\ Bryce Pardo, Evolution of the U.S. Overdose Crisis: 
Understanding China's Role in the Production and Supply of Synthetic 
Opioids. Santa Monica, Calif.: RAND Corporation, CT-497, 2018. As of 
July 19, 2019: https://www.rand.org/pubs/testimonies/CT497.html.
    \25\ U.S. Senate, Committee on Homeland Security and Governmental 
Affairs, Permanent Subcommittee on Investigations, 2018; T. Owen, 
testimony before the U.S. Senate Committee on Homeland Security and 
Governmental Affairs, January 25, 2018.

    TABLE 1.--CBP SEIZURES OF FENTANYL IN FISCAL YEAR 2018 BY MODE OF
                                TRANSPORT
------------------------------------------------------------------------
                                         Estimated              Average
                                          Purity-              Weight of
      Mode of Transport         Weight    Adjusted   Seizure    Seizure
                                 (kg)      Weight   Incidents    (gross
                                            (kg)                  kg)
------------------------------------------------------------------------
Land (mostly Southwest           654.00      49.05        182       3.59
 Border)....................
Border Checkpoints (Border       176.36      13.23  .........  .........
 Patrol)....................
Express consignment.........      52.62      47.36         76       0.69
Mail........................      61.72      55.55        455       0.14
Air (other).................      50.06      45.05          2      25.03
                             -------------------------------------------
Total.......................     994.76     210.24        715  .........
------------------------------------------------------------------------
Source: CBP, Strategy to Combat Opioids, Washington, DC, 2019; DEA,
  National Drug Threat Assessment, Springfield, Va., 2017.
Note: According to DEA, the purity of fentanyl arriving at mail and
  express consignment facilities is often 90 percent or more, while
  seizures at the Southwest Border are reportedly 5 to 10 percent pure;
  here we use the midpoint of 7.5 percent.

    The smuggling of synthetic opioids from China may be evolving. In 
late June 2018, CBP at the Philadelphia port of entry seized 50 
kilograms of 4-fluoroisobutyryl fentanyl hidden in barrels of iron 
oxide in an air shipment from China.\26\ CBP noted that the shipment 
was high purity, which would make this seizure one of the largest to 
originate from China and perhaps the largest single seizure of a 
fentanyl-like substance.
---------------------------------------------------------------------------
    \26\ CBP, 2018.
---------------------------------------------------------------------------
China: A Source of New Drugs and Chemical Precursors
    The manufacture of many of these new drugs and precursors is linked 
to China's large and underregulated chemical and pharmaceutical 
sectors. China is a leading exporter of active pharmaceutical 
ingredients and chemicals that can be used in the production of 
controlled substances and other medications. These include 
methamphetamine precursors and cocaine reagents, such as ephedrine, 
pseudoephedrine, and potassium permanganate.\27\ To avoid detection by 
customs authorities, Chinese producers or distributors often use 
technically legal workarounds and, when necessary, outright deception. 
It has been reported that Chinese traffickers and chemical exporters 
will mislabel shipments, modify chemicals, or ship pre-precursors that 
fall outside international controls.\28\
---------------------------------------------------------------------------
    \27\ O'Connor, 2016; U.S. Department of State, International 
Narcotics Control Strategy Report, Washington, DC, 2017.
    \28\ O'Connor, 2016.
---------------------------------------------------------------------------
    Lack of international control manifested by the U.N. system of drug 
conventions has allowed Chinese manufacturers to export fentanyl 
precursors. Although they have been scheduled in the United States for 
over a decade, N-Phenethyl-4-piperidinone (NPP) and 4-anilino-
Nphenethylpiperidine (4-ANPP) were not subject to international 
controls until October 2017.\29\ In late 2016, the U.S. Department of 
State identified nearly 260 producers of these precursors, more than 
half of which were in China.\30\ These chemicals were finally scheduled 
in China early last year.\31\ Previously, there was little scrutiny on 
their manufacture, and producers faced little, if any, reporting 
requirements or production and exporting restrictions.
---------------------------------------------------------------------------
    \29\ International Narcotics Control Board, ``INCB: Scheduling of 
Fentanyl Precursors Comes into Force,'' October 18, 2017.
    \30\ J. Whalen, ``U.S. Seeks Curb on Chemicals Used to Make 
Fentanyl, a Powerful Opioid,'' Wall Street Journal, October 14, 2016.
    \31\ DEA, ``China Announces Scheduling Controls on Two Fentanyl 
Precursor Chemicals,'' press release, January 5, 2018. As of July 19, 
2019: https://www.dea.gov/press-releases/2018/01/05/china-announces-
scheduling-controls-two-fentanyl-precursor-chemicals.
---------------------------------------------------------------------------
    Much like circumvention of precursor regulations, Chinese 
manufacturers often synthesize new substances that fall outside 
National and international laws, including drugs that mimic the effects 
of cannabis, stimulants, benzodiazepines, and opioids. To stem the 
growing production of uncontrolled and novel psychoactives, the Chinese 
government has added new chemicals to national drug schedules. In late 
2015, China added 116 new substances, including 38 synthetic 
cannabinoids, 26 synthetic cathinones (e.g., ``bath salts''), 23 
phenethylamines (e.g., MDMA analogues), and 6 synthetic opioids to its 
drug control laws.\32\ Since then, China has scheduled additional 
fentanyl analogues as U.S. and Canadian law enforcement bring them to 
the attention of Chinese authorities.\33\ In January 2017, China's 
Ministry of Public Security listed 4 additional synthetic opioids, 
including the highly potent carfentanil.\34\ This was followed 6 months 
later with 4 new substances, including 2 non-fentanyl synthetic 
opioids, U-47700 and MT-45.\35\ Most recently, the Chinese government, 
at the request of the U.S. Government, has adopted a generic ban on all 
substances that are ``structurally related to fentanyl;'' the ban went 
into effect in May of this year.\36\
---------------------------------------------------------------------------
    \32\ United Nations Office on Drugs and Crime Early Warning 
Advisory on New Psycoactive Substances, ``China Announces Controls over 
116 New Psychoactive Substances,'' press release, October 2015. As of 
July 19, 2019: https://www.unodc.org/LSS/Announcement/Details/83b02e73-
4896-4ed5-944c-51a7646647aa.
    \33\ U.S. Drug Enforcement Administration, 2018; Royal Canadian 
Mounted Police, ``RCMP and Chinese Ministry of Public Security Commit 
to Combat the Flow of Fentanyl into Canada,'' November 16, 2016. As of 
July 19, 2019: http://www.rcmp-grc.gc.ca/en/news/2016/24/rcmp-and-
chinese-ministry-public-safety-commit-combat-the-flow-fentanyl-canada.
    \34\ Chinese Ministry of Public Security, ``Notice on Inclusion of 
Four Fentanyl Substances, Such as Fentanyl, in the Supplement to the 
Catalog of Nonmedical Narcotic Drugs and Psychotropic Substances 
Control,'' March 1, 2017.
    \35\ DEA, ``China Announces Scheduling Controls of New Psychoactive 
Substances/Fentanyl-Class Substances,'' June 19, 2017.
    \36\ Liu Yuejin, ``SCIO Briefing on Fentanyl-Related Substances 
Control,'' webpage, April 2, 2019. As of July 19, 2019: http://
www.china.org.cn/china/2019-04/02/content_74637197.htm.
---------------------------------------------------------------------------
    Alhough China has made efforts to control fentanyl and fentanyl 
analogues, many of these chemicals continue to show up in drug seizures 
at ports of entry and in domestic drug markets. The ease of ordering 
these substances on-line and having them shipped directly to the United 
States hampers supply reduction efforts.\37\ Chinese chemical and 
pharmaceutical firms openly advertise these substances on English-
language websites accessible by a simple internet search. Vendors will 
sometimes purposefully conceal shipments through freight forwarding 
systems, mislabel packages, or route them through a third country to 
conceal efforts to trace packages to their original source.\38\
---------------------------------------------------------------------------
    \37\ U.S. Senate, Committee on Homeland Security and Governmental 
Affairs, Permanent Subcommittee on Investigations, 2018.
    \38\ U.S. Senate, Committee on Homeland Security and Governmental 
Affairs, Permanent Subcommittee on Investigations, 2018.
---------------------------------------------------------------------------
    In addition to the supply of synthetic opioids and their chemical 
inputs, U.S. and Canadian law enforcement have also seized industrial-
grade press machines, dies, and stamps imported from China that are 
used in the manufacture of counterfeit prescription tablets.\39\ 
According to the DEA, drug distributors in the United States use 
imported powder formulations of synthetic opioids and press machines to 
manufacture counterfeit tablets.\40\ The distribution of fake tablets 
is of great concern because they resemble regulated products of known 
dose and consistency. They might also appeal to a broader population of 
individuals who do not inject drugs or are averse to using heroin.
---------------------------------------------------------------------------
    \39\ DEA, 2018b; Royal Canadian Mounted Police. ``RCMP Arrest 
Opioid Drug Trafficker,'' press release, December 6, 2018. As of July 
19, 2019: http://www.rcmp-grc.gc.ca/en/news/2018/rcmp-arrest-opioid-
drug-trafficker DEA, Counterfeit Prescription Pills Containing 
Fentanyls: A Global Threat, Springfield, Va., July 2016. As of July 19, 
2019: https://content.govdelivery.com/attachments/USDOJDEA/2016/07/22/
fileattachments/590360/fentanyl%2Bpills%2Breport.- pdf.
    \40\ DEA, 2016.
---------------------------------------------------------------------------
Other Sources of Synthetic Opioids
    Mexico is another important source of illicit fentanyl destined for 
U.S. drug markets. Drug trafficking organizations in that country have 
long supplied much of the heroin that is used in the United States. In 
recent years, there has been a noticeable increase in the amount of 
fentanyl seized at the U.S.-Mexico border by U.S. law enforcement and 
Mexican authorities.\41\ The DEA has noted that Mexican drug 
trafficking organizations are importing fentanyl and fentanyl 
precursors from China. Drug traffickers are smuggling powder fentanyl 
alongside heroin or pressing it into counterfeit tablets made to look 
like genuine pharmaceutical-grade products.\42\ Synthetic opioids, 
which can be readily made in a lab, are attractive alternatives to 
poppy-based heroin, which is susceptible to blight, drought, 
eradication, and labor shortages. Also, the very high potency-to-weight 
ratio of fentanyl makes it ideal for smuggling.
---------------------------------------------------------------------------
    \41\ CBP, 2019; J. Nacar, ``Fentanilo Tiene Sus Epicentros en BC y 
CDMX,'' Eje Central. February 9, 2019.
    \42\ DEA, 2016.
---------------------------------------------------------------------------
    Since late 2017, 5 clandestine labs have been seized in Mexico. 
Most were in densely-populated residential areas in such major cities 
as Mexicali and Mexico City.\43\ The scale and access of chemical 
precursors and pill press machines from China, combined with easier 
synthesis techniques allows for the minimally trained to manufacture 
fentanyl virtually anywhere--making supply disruption more challenging.
---------------------------------------------------------------------------
    \43\ DEA, 2018b; ``PGR Asegura Supuesto Laboratorio de Fentanilo en 
CDMX,'' El Financiero, December 12, 2018; ``Aseguran en Culiacan, 
Sinaloa Presunto Laboratorio de Fentanilo,'' El Debate, April 11, 2019; 
PGR. Comunicado DPE/6719/17. Inicia PGR investigacion por aseguramiento 
de laboratorio clandestino en Sinaloa. November 23, 2017. ``Medico 
Bulgaro, Exmilitar, Kulkin Tenia, en un Cuartito de Mexicali, 
Laboratorio `AAA' de Fentanilo,'' Que Hacer Politico, September 18, 
2018.
---------------------------------------------------------------------------
    The DEA also notes Canada as another source of fentanyl.\44\ Parts 
of that country are also experiencing a surge in synthetic opioid 
overdoses, much like the United States. Rather than a source of 
production of synthetic opioids, Canada may serve as a transshipment 
point. DEA notes that synthetic opioids are imported from China into 
Canada, where they are pressed into counterfeit tablets, some of which 
are smuggled into the United States.\45\
---------------------------------------------------------------------------
    \44\ DEA, 2018b.
    \45\ DEA, 2016.
---------------------------------------------------------------------------
    India is another country with a robust pharmaceutical industry 
which faces limited regulatory oversight.\46\ It is unclear to what 
extent Indian-sourced fentanyl is arriving in the United States, but in 
2018, Indian authorities reported two relatively large seizures of 
fentanyl destined for North America.\47\
---------------------------------------------------------------------------
    \46\ India Brand Equity Foundation, ``Indian Pharmaceuticals 
Industry Analysis,'' May 2019. A. Altstedter and A. Edney, ``Culture of 
`Bending Rules' in India Challenges U.S. Drug Agency,'' Bloomberg, 
January 31, 2019.
    \47\ ``Three, Including Mexican National, Held with Drugs Worth Rs 
100 Cr in Madhya Pradesh,'' Business Standard, September 28, 2018; D. 
Singh, ``Mumbai: Anti-Narcotics Cell Seizes Drug Worth Rs 1000 Crore,'' 
India Today, December 28, 2018.
---------------------------------------------------------------------------
    Currently, U.S. authorities believe China to be the primary source 
for fentanyl, fentanyl analogues, precursor chemicals, and press 
machines used in the manufacture of counterfeit tablets. As such, I 
turn to China's chemical and pharmaceutical industries.
          china's industry growth and regulatory deficiencies
    Although the Chinese central government has taken steps to control 
new chemicals and precursors, the problem persists. Regulatory capacity 
in China is inadequate to police the country's expansive pharmaceutical 
and chemical industries. Unauthorized manufacture and handling of 
fentanyl is prohibited in China, but not fentanyl itself. In fact, the 
country legitimately produces fentanyl for medical purposes.\48\ And 
fentanyl remains the most common synthetic opioid reported in overdose 
deaths and drug seizures in the United States, suggesting inadequate 
regulatory capacity and enforcement on the part of Chinese authorities.
---------------------------------------------------------------------------
    \48\ W. Zheng, ``China's Fentanyl Firms Back Crackdown on Opioid,'' 
South China Morning Post, December 3, 2018.
---------------------------------------------------------------------------
    Government-led market reforms in the past 30 years have helped 
China become a global manufacturing center driven by exports. The 
expansion of e-commerce and inexpensive shipping have made global trade 
cheaper and more convenient. Together, these phenomena helped make many 
of China's industries important links in international supply chains. 
The same is true for its expansive pharmaceutical and chemical 
industries.
    Today, China's pharmaceutical industry counts some 5,000 
manufacturers that produce more than 2,000 products, with an annual 
production capacity of more than 2 million tons, making the country the 
single largest exporter of active pharmaceutical ingredients (APIs) in 
the world.\49\ According to the World Health Organization (WHO), 
China's pharmaceutical industry is now the second-largest in the world, 
with recent annual sales revenues of more than $100 billion.\50\
---------------------------------------------------------------------------
    \49\ World Health Organization, China Policies to Promote Local 
Production of Pharmaceutical Products and Protect Public Health, 2017.
    \50\ World Health Organization, 2017.
---------------------------------------------------------------------------
    In addition to its pharmaceutical industry, the Department of State 
estimates that China could have as many as 400,000 chemical 
manufacturers or distributors, some of which are operating without 
legal approval.\51\ These firms produce tons of chemicals each week 
intended for industrial and commercial use.\52\ One private-sector 
analysis estimates that China's chemical industry has grown by an 
annual average of 9 percent in recent years and made up 3 percent of 
the national economy in 2016, generating more than $100 billion in 
profits that year.\53\
---------------------------------------------------------------------------
    \51\ U.S. Department of State, International Narcotics Control 
Strategy Report, Washington, DC: Bureau of International Narcotics and 
Law Enforcement Affairs, 2014; U.S. Department of State, International 
Narcotics Control Strategy Report, Washington, DC: Bureau of 
International Narcotics and Law Enforcement Affairs, 2015.
    \52\ O'Connor, 2016.
    \53\ Atradius, ``Market Monitor: Focus on Chemicals Performance and 
Outlook,'' 2017.
---------------------------------------------------------------------------
    Rapid commercial growth brought on by market reforms has outpaced 
the capacity and design of China's regulatory regime.\54\ Regulatory 
gaps and bureaucratic fragmentation continue to hamper China's ability 
to oversee its pharmaceutical and chemical industries. In the past 
decade, the China Food and Drug Administration (CFDA) has made efforts 
to adopt better enforcement and production guidelines, including good 
manufacturing practices (GMPs). The GMP standards cover most basic 
aspects of manufacturing, including environmental protections, sanitary 
working conditions, product testing and tracking, and record 
keeping.\55\
---------------------------------------------------------------------------
    \54\ Li and Sun, 2014; World Health Organization, 2017.
    \55\ World Health Organization, 2017.
---------------------------------------------------------------------------
    However, the division of regulatory design and enforcement 
responsibilities among national governmental entities is a commonly-
noted problem. Lack of coordination and competing regulatory oversight 
create opportunities for some firms to hide unregulated activities in 
plain sight. According to one report written by staff of the U.S.-China 
Economic and Security Review Commission, at one time there were 8 
governmental entities involved in promulgating and enforcing production 
and export requirements for pharmaceuticals or chemicals.\56\
---------------------------------------------------------------------------
    \56\ O'Connor, 2017.
---------------------------------------------------------------------------
    In addition to the patchwork of responsible agencies, competing 
incentives between levels of government impede enforcement. Provincial 
authorities protect, promote, and sometimes manage local economies and 
industries.\57\ Although the central government, through the CFDA, 
designs rules to govern GMP standards, it relies on provincial 
governments to enforce them. According to the WHO, provincial 
governments are mainly tasked with inspecting and certifying companies 
for GMP approval.\58\ This division in regulatory design and 
enforcement generates opportunities for regulatory capture, 
nonenforcement, or outright corruption when the economic incentives of 
provincial governments misalign with those of good governance.
---------------------------------------------------------------------------
    \57\ T. Gong, ``Corruption and Local Governance: The Double 
Identity of Chinese Local Governments in Market Reform,'' Pacific 
Review, Vol. 19, No. 1, 2006, pp. 85-102.
    \58\ World Health Organization, 2017.
---------------------------------------------------------------------------
    Beyond gaps in regulatory design and misaligned incentives, the 
government's regulatory capacity is limited. The division in 
enforcement strategy, in which the CFDA inspects only a subset of 
manufacturers, leaving the rest up to provincial authorities, may 
reflect this limitation. The CFDA and other regulators are unable to 
effectively inspect and police the large number of pharmaceutical 
manufacturers. The WHO notes that, although the CFDA is attempting to 
hire more inspectors, its efforts are complicated by lack of time and 
resources; private industry salaries are highly competitive, 
complicating efforts to retain qualified staff.\59\
---------------------------------------------------------------------------
    \59\ World Health Organization, 2017.
---------------------------------------------------------------------------
    Data from the CFDA show that regulators are increasing the number 
of inspections, yet gaps remain. Annual reports indicate an increase in 
inspected firms and applicants from 698 in 2015 to 751 in 2017, 
although there was a dip in inspections in 2016.\60\ The number of CFDA 
inspectors has remained around 2,000 over the same period; however, 
regulators have shifted focus to GMP certification inspections away 
from other forms of inspections, such as preapproval and overseas 
inspections. These regulatory efforts, which have traditionally been 
assigned to provincial governments, more than doubled, from just over 
200 in 2015 and 2016 to 428 in 2017.\61\ The number of unannounced 
inspections remained steady over this period, while those that included 
international inspectors (such as the U.S. Food and Drug Administration 
[FDA]) modestly increased in recent years.
---------------------------------------------------------------------------
    \60\ CFDA, Center for Food and Drug Inspection, Annual Report of 
Drug Inspection 2015, 2016; CFDA, Center for Food and Drug Inspection, 
Annual Report of Drug Inspection 2016, 2017; CFDA, Center for Food and 
Drug Inspection, Annual Report of Drug Inspection 2017, 2018.
    \61\ CFDA, Center for Food and Drug Inspection, 2016, 2017, 2018.
---------------------------------------------------------------------------
    Of the 428 GMP inspections carried out in 2017, 37 firms or 
applicants did not pass, and one-quarter were issued warning letters 
for violations. According to the most recent CFDA annual report, 15 
firms that manufacture narcotic or psychotropic drugs, precursors, or 
pharmaceuticals were inspected that year; 3 did not pass inspection for 
failure to properly handle mailing and transportation certificates or 
failure to control samples.\62\ These numbers suggest that regulators 
are inspecting a small share of companies and that a sizable portion of 
manufacturers of controlled substances inspected in 2017 failed 
inspection for improper handling and transport.
---------------------------------------------------------------------------
    \62\ CFDA, Center for Food and Drug Inspection, 2018.
---------------------------------------------------------------------------
    The situation is similar for China's chemical regulators, which 
cannot adequately enforce regulations on all manufacturers and 
distributors.\63\ Regulatory gaps have led to a large increase in the 
number of unlicensed or ``semi-legitimate'' chemical manufacturers or 
distributors.\64\ There are reports that use of shell facilities and 
weak oversight lets some chemical and pharmaceutical manufacturers 
avoid scrutiny, allowing companies to produce and sell beyond their 
legal limits.\65\ In 2007, industry insiders estimated that uncertified 
chemical manufacturers produced half of the APIs sold in China, with 
most exported to foreign markets.\66\ It is unclear how many 
uncertified manufacturers are supplying international API markets today 
or how many synthetic opioids or other precursors are produced and 
exported via shell entities. The Department of State also points to 
insufficient regulatory oversight and corruption of local government 
officials as explanations behind illicit drug and chemical 
production.\67\
---------------------------------------------------------------------------
    \63\ O'Connor, 2017.
    \64\ O'Connor, 2016.
    \65\ O'Connor, 2016.
    \66\ W. Bogdanich, ``Chinese Chemicals Flow Unchecked onto World 
Drug Market,'' New York Times, October 31, 2007.
    \67\ U.S. Department of State, 2017.
---------------------------------------------------------------------------
    Chinese authorities recognize these problems, and the government 
has made some efforts to expel corrupt officials. In 2015, President Xi 
Jinping demanded that authorities increase penalties and stiffen drug 
regulation.\68\ In March 2018, the central government proposed another 
reorganization of the CFDA, combining it with other regulatory 
entities.\69\ Industry observers suggest that this reorganization is 
intended to extend the agency's regulatory reach and reduce gaps in 
oversight.\70\
---------------------------------------------------------------------------
    \68\ World Health Organization, 2017.
    \69\ Xinhua News Agency, ``Explanation of the State Council's 
Institutional Reform Plan,'' March 14, 2018.
    \70\ A. Liu, ``China Creates New Drug Regulator in Biggest 
Government Overhaul in Years,'' FiercePharma, March 13, 2018.
---------------------------------------------------------------------------
                       potential policy responses
    Congress and Federal authorities have several existing options to 
combat the synthetic opioid crisis. However, given the scope of this 
problem and the new challenges it presents, Congress and executive 
agencies must look beyond available drug policy tools.
    First, given the lack of information about supply and demand, there 
is dire need to improve how agencies collect and analyze drug market 
indicators. Greater effort and resources are needed to improve 
measurement and analysis of seizures and overdoses, which are likely to 
be undercounted because of the novelty of analogues.\71\ Most of our 
drug policy data collection and analysis systems are inadequate to 
accurately estimate the number of drug-using individuals that are at 
risk of exposure to fentanyl or assess the arrival of synthetic opioids 
in a locality. Congress could direct Federal authorities to reintroduce 
expanded data collection systems, such as the Arrestee Drug Abuse 
Monitoring Program (ADAM) and the Drug Abuse Warning Network (DAWN) or 
other novel analysis methods, such as wastewater testing, which can be 
used to enhance measures of prevalence of use estimates as well serve 
as early warning systems to alert to the arrival of synthetic opioids 
in a market. Given how fast new substances emerge, we need to improve 
measurement and reduce data lags. This is crucial, considering the need 
for early warning systems to safeguard communities that have not yet 
been exposed to synthetic opioids. Additionally, more research is 
needed to understand the decisionmaking and operational processes of 
mid- and high-level importers so as to better craft policy responses to 
disrupt and deter on-line sourcing and distribution from individuals in 
the United States.
---------------------------------------------------------------------------
    \71\ C. J. Ruhm, ``Corrected US Opioid-Involved Drug Poisoning 
Deaths and Mortality Rates, 1999-2015,'' Addiction, Vol. 113, No. 7, 
2018.
---------------------------------------------------------------------------
    Second, Congress could encourage Federal authorities to work with 
Chinese counterparts to strengthen the country's regulatory and 
enforcement capabilities. In the short term, China needs to be 
approached as a steward of the international system and a global 
partner in protecting the public against the harms from drugs. This 
includes constructively engaging China and other partner countries at 
relevant multilateral institutions. In the medium term, efforts could 
be made to enhance joint partnerships in other areas of drug policy. 
The DEA has opened a new office in Guangzhou, yet greater collaboration 
is needed. For example, the problems of methamphetamine misuse in China 
may give way to enhanced U.S.-Chinese research into improved treatments 
and responses or joint law enforcement investigations that result in 
disruption of supply. In the long term, Congress could encourage U.S. 
regulators to engage with Chinese authorities to improve joint 
monitoring and evaluation efforts of regulation violations, as well as 
aid the CFDA hire, train, and retain qualified personnel. Congress 
could also consider appropriating additional resources to aid U.S. 
authorities that work with international partners and direct the FDA, 
DEA, Department of Homeland Security, and Department of State to 
improve interagency coordination and cooperation on synthetic opioids 
with Chinese counterparts.
    Third, there is a need to better understand and target producers, 
importers, and high-level distributors both in the United States and in 
China. The supply of synthetic opioids deviates from the traditional 
paradigm of plant-based drugs. Synthetic opioids are advertised and 
sold on the internet and often distributed via the postal system. This 
presents a challenge but also an opportunity to U.S. law enforcement in 
gathering evidence and informing threat detection. Additional resources 
and innovative thinking will be needed; Congress may consider 
strengthening cyber-intelligence gathering efforts already under way, 
such as the Department of Justice's Joint Criminal Opioid Darknet 
Enforcement team, or encourage new efforts aimed at producers and 
vendors that operate outside of the darknet. Additionally, enhancing 
DEA's ability to chemically analyze fentanyl seizures, through its 
existing Fentanyl Signature Profiling Program, might offer insights 
into illicit manufacture. With additional tools, resources, and a 
greater understanding of the problem, law enforcement might be able to 
rapidly build cases against importers as well as quickly share 
actionable information and intelligence with Chinese authorities to 
effectively prosecute producers and distributors that flaunt Chinese 
laws.
    Last and most importantly, we need to strengthen Federal efforts 
aimed at reducing demand for opioids and overdose risk. Demand 
reduction could lessen economic incentives for drug dealers and save 
the lives of those suffering from opioid-use disorder. Demand reduction 
for opioids includes improving access to existing and proven therapies, 
such as methadone and buprenorphine. Some steps that Congress could 
take are encouraging the expansion of pharmacological treatments 
covered by private and public insurance, subsidizing the cost of 
medication treatments to those who cannot afford them, and reviewing 
and reducing regulatory barriers on their provision. Congress could 
also direct Federal health authorities, such as the FDA, to assess 
additional innovative and evidence-informed medication treatments.\72\ 
While expanding access to treatment may take time, greater efforts are 
immediately needed to reduce overdose risk. Increasing the availability 
of naloxone is one possible short-term, life-saving intervention. 
Recent analysis has found that direct dispensing of naloxone by 
pharmacists is associated with reductions in fatal overdoses.\73\ 
Congress could look to reduce barriers to access to naloxone or 
subsidize its provision. Additionally, expanding access to 
interventions aimed at informing those who use drugs, especially 
stimulants, about the presence of synthetic opioids might be worth 
exploring. This could entail developing and disseminating tools, like 
test strips, aimed at detecting the presence of fentanyl or other 
synthetic opioids.
---------------------------------------------------------------------------
    \72\ There have been several randomized control trials examining 
the efficacy of other agonist therapies, including injectable 
hydromorphone and diacetylmorphine when treating those who have not 
benefited from routine treatments like methadone, see Beau Kilmer, 
Jirka Taylor, Jonathan P. Caulkins, Pam A. Mueller, Allison J. Ober, 
Bryce Pardo, Rosanna Smart, Lucy Strang, Peter H. Reuter, Considering 
Heroin-Assisted Treatment and Supervised Drug Consumption Sites in the 
United States, Santa Monica, Calif.: RAND Corporation, 2018. As of July 
19, 2019: https://www.rand.org/pubs/research_reports/RR2693.html.
    \73\ R. Abouk, R.L. Pacula, and D. Powell, ``Association Between 
State Laws Facilitating Pharmacy Distribution of Naloxone and Risk of 
Fatal Overdose,'' JAMA Internal Medicine, Vol. 179, No. 6, 2019, pp. 
805-811.
---------------------------------------------------------------------------
    The arrival of illicitly-manufactured synthetic opioids creates 
uncertainty in illicit drug markets, raising the risk of overdose. 
These substances are changing the drug policy landscape and stretching 
our ability to respond effectively. Decision makers will need to 
consider the new challenges presented by fentanyl and related 
substances to stem the rising trend in overdoses.

    Mr. Rose. Thank you for your testimony.
    I now recognize Mr. Hinson to summarize his statement for 5 
minutes.

     STATEMENT OF JAMES EDWARD HINSON, JR., DEPUTY CHIEF, 
  INVESTIGATIVE BUREAU COMMANDER, GREENSBORO POLICE DEPARTMENT

    Mr. Hinson. Good morning, Chairman Max Rose, Ranking Member 
Mark Walker, Chairwoman Kathleen Rice, Ranking Member Clay 
Higgins, and Members of the subcommittee. Thank you for the 
opportunity to testify before you today.
    It is an honor to speak on behalf of the many dedicated 
professionals at the Greensboro Police Department, Chief Wayne 
Scott, City Manager David Parrish, and Assistant Manager over 
Public Safety Nathaniel Davis.
    As deputy chief, I currently serve as the bureau commander 
of the Investigative Bureau. I have had the honor of serving 
this agency for over 28 years and have served in various 
functions, including but not limited to Special Operations 
Division and the Patrol Bureau commander.
    The Greensboro Police Department is located in North 
Carolina. It is compromised of 667 officers and 101 non-sworn 
employees. The city has a population of over 290,000 citizens. 
The mission of our agency is: Partnering to fight crime for a 
safer Greensboro.
    I come before you today to discuss the opioid crisis. 
Eighty percent of all heroin users have started with 
prescription opioids. Seventy percent of all those who have 
received treatment for heroin addiction have relapsed. The age 
range most affected by heroin overdose is 25 years of age to 54 
years of age.
    There has been a 500 percent increase in overdose calls 
since 2014 for the Greensboro Police Department. In 2018, the 
Greensboro Police Department responded to 67 heroin deaths, 418 
overdose calls. In 2019, our agency responded to 56 heroin 
deaths and 319 overdose calls. In 2018, the Vice/Narcotics 
Division seized over 1,366 grams of heroin. In 2019, from 
January through June, we have seized 8,478 grams of heroin.
    Greensboro police officers are assigned as task force 
officers for short durations during their tenure. The officers 
are assigned to local, State, and Federal agencies for the 
purpose of providing coordinated investigative and enforcement 
functions.
    Federal law enforcement agencies tend to have a small 
number of special agents assigned to their field offices and 
rely on the assistance of local law enforcement agencies and 
TFOs to assist in accomplishing their missions. Task force 
officers have the ability to initiate Federal investigations, 
to include serving as sworn officers on a Federal warrant, 
Federal indictments, and Federal court orders.
    Drug Enforcement Administration and Homeland Security 
investigations coordinate with the Greensboro Police Department 
through Vice/Narcotics Division. Federal Bureau of 
Investigations-Counterterrorism and United States Secret 
Service coordinate with our agency through our Criminal 
Investigations Division.
    The detectives in the Vice/Narcotics Division utilize 
fusion centers, such as the El Paso Information Center, on a 
weekly basis, especially in the realm of interdiction. The 
information-sharing center allows the detectives to quickly run 
information they are gathering and make a rapid determination 
if the subjects of the investigation are involved with large-
scale investigations that are on-going by other agencies.
    The Greensboro Police Department utilizes a small group of 
detectives assigned to Vice/Narcotics Division and are cross-
designated as Federal task force officers with Homeland 
Security. These detectives are designed to identify, 
infiltrate, disrupt, dismantle narcotics trafficking and bulk 
currency smuggling organizations operating within our city.
    The Greensboro Police Department has assisted the DEA with 
providing statistical data regarding arrests and seizures in 
our area, which ultimately led to this area being classified as 
a High-Intensity Drug Trafficking Area initiative.
    November 2018, the interdiction group noticed a pattern of 
packages being shipped through the United States Postal 
Service. Through investigative methods, the group developed 
sufficient information to initiate a phone wire case on a 
particular group of individuals trafficking heroin and cocaine.
    After 6 months of the investigation, utilizing resources 
from the United States Postal Service, the DEA, and the North 
Carolina State Bureau of Investigation to conduct this 
investigation, the group was able to arrest 16 individuals and 
seize 4 kilograms of heroin, 1.5 kilograms of cocaine, 1.5 
pounds of marijuana, 8 firearms, and over $128,000 in cash. 
This was very significant for our city.
    The opioid crisis has left few untouched, with Americans 
dying every day from the opioid overdose. During my 28 years of 
service, I have witnessed families being destroyed, from 
children being born with neonatal abstinence syndrome or 
experiencing trauma as a result of a parent or family member's 
addiction.
    Families are being ripped apart because of the opioid 
crisis, resulting in higher criminal activity. Partnering law 
enforcement agencies are implementing solutions and addressing 
the problem through comprehensive approaches that include but 
are not limited to educational seminars.
    I thank you for the opportunity to testify before this 
committee today.
    [The prepared statement of Mr. Hinson follows:]
             Prepared Statement of James Edward Hinson, Jr.
                             July 25, 2019
    Good morning, Chairman Max Rose, Ranking Member Mark Walker, 
Chairwoman Kathleen Rice, Ranking Member Clay Higgins, and Members of 
the subcommittee. Thank you for the opportunity to testify before you 
today. It is an honor to speak on behalf of the many dedicated 
professionals at the Greensboro Police Department (GPD), Chief Wayne 
Scott, City Manager David Parrish, and Assistant City Manager over 
Public Safety Nathaniel Davis. As deputy chief, I currently serve as 
the Bureau Commander of the Investigative Bureau of the Greensboro 
Police Department. I'd had the honor of serving this agency for 28 
years and have served in various functions, included but not limited to 
the Special Operations Division, and as patrol bureau commander.
    The Greensboro Police Department is located in North Carolina and 
is comprised of 667 officers and 101 non-sworn employees. Our city has 
a population of over 290,000 citizens. The mission of our agency is, 
Partnering to fight crime for a safer Greensboro. Our vision states as 
the following: The Greensboro Police Department will be a National 
model for exceptional policing, through our commitment to excellence, 
selfless public service, and effective community partnerships. I come 
before you today to discuss the opioid crisis.
                             opioid crisis
    An opioid is a prescribed controlled substance commonly used for 
pain management. With overuse or experimentation, anyone can become 
addicted. This addiction can drive users to heroin.
    Heroin is an illegal opioid and is typically injected into the 
blood stream. It often replaces prescription opioids due to 
availability and cost. Heroin can also be laced with a deadly drug call 
Fentanyl. Fentanyl can increase the overall potency that will often 
result in a stronger high.
    Fentanyl is a potent synthetic opioid pain reliever. It is 
impossible to measure the difference between a lethal or effective dose 
outside a laboratory, this drug is deadly. Fentanyl can be disguised as 
heroin to unsuspected individuals. Some individuals will gain access to 
Fentanyl and sell it as a very potent Heroin. This is where the 
majority of overdose deaths occur due to the unfamiliarity with the 
drug they are actually using.
  <bullet> 80 percent of all Heroin users have started with 
        prescription opioids.
  <bullet> 70 percent of all those who have received treatment for 
        Heroin addiction have relapsed.
  <bullet> The age range most affected by Heroin overdoses is: 25 years 
        of age to 54 years of age.
  <bullet> There has been a 500 percent increase in overdose calls 
        since 2014 for the Greensboro Police Department.
    In 2018, the Greensboro Police Department responded to 67 Heroin 
deaths and a total of 418 overdose calls for service. In 2019, the 
Greensboro Police Department has responded to 56 Heroin deaths and a 
total of 319 overdose calls for service.
    During my 28 years of service I have witness families being 
destroyed by this deadly drug often referred to as ``Opioids'' or 
``Heroin'', due to overdose or criminal activity leading to 
incarceration or death.
    In 2018 the Vice Narcotics Division of the Greensboro Police 
Department has seized over 1,366.65 grams of Heroin and in 2019 from 
January through June there have been 8,478.80 grams of Heroin seized.
Enforcement and Partnerships
    The Greensboro Police Department employs full-time, sworn police 
officers who are designated and assigned as Task Force Officers for 
short durations during their tenure. These Greensboro Police Officers 
are assigned to local, State, and Federal agencies for the purpose of 
providing coordinated investigative and enforcement functions and 
interoperability. This allows the Greensboro Police Department to 
maintain an on-going and effective relationship with Federal agencies 
operating within the same jurisdiction.
    Federal Law Enforcement Agencies tend to have a small number of 
Special Agents assigned to their field offices and rely on the 
assistance of local Law Enforcement Agencies and Task Force Officers to 
assist in accomplishing their agencies mission. Having Task Force 
Officers assigned to these agencies provides the ability to more 
effectively identify persons and businesses that conduct illegal 
activities that would otherwise go undetected.
    Officers have the ability to initiate Federal Investigations to 
include serving as an Affiant on a Federal Warrant, Federal 
Indictments, and Federal Court Orders. This allows the local government 
agency the ability to adopt local cases for Federal prosecution.
    Drug Enforcement Administration (DEA) and Homeland Security 
Investigations (HSI) coordinate with the Greensboro Police Department 
through the Vice/Narcotics Division. Federal Bureau of Investigations 
(FBI) Counter-Terrorism and United States Secret Service (USSS) 
coordinate with our agency through the Criminal Investigations 
Division.
    These partnerships allow investigations through the Vice/Narcotics 
Division with the United States Postal Inspection and with the NC State 
Bureau of Investigation (SBI). Most large-scale investigations in our 
agency involve the cooperation of one or all of the aforementioned 
agencies. These programs have proven to be beneficial to both the 
Greensboro Police Department and Federal agencies for years.
    Currently the Greensboro Police Department has 5 Vice-Narcotics 
Detectives that are designated as Federal Task Force Officers with 
Homeland Security. The primary nature of investigations initiated by 
Homeland Security and Task Force Officers include financial crimes, 
gangs, narcotics smuggling/trafficking, and weapons violations.
    The Detectives in the Vice/Narcotic Division utilize Fusion Centers 
such as the El Paso Information Center (EPIC) on a weekly basis, 
especially in the realm of interdiction. The information-sharing 
centers allow the detectives to quickly run information they are 
gathering and make a rapid determination if the subjects of the 
investigation are involved with large-scale investigations that are on-
going by other agencies. This way the detectives can make contact with 
the agency currently investigating and maybe able to assist them with 
gathering information to further their investigation.
    The Greensboro Police Department utilizes a small group in the 
Vice/Narcotics Division with an Interdiction Initiative. This group is 
specifically designed to identify, infiltrate, disrupt, and dismantle 
narcotics trafficking and bulk currency smuggling (narcotics proceeds) 
organizations operating in the city of Greensboro that utilize 
legitimate businesses to illegally import and transport narcotics and 
the proceeds from this criminal activity into and out of Greensboro on 
both National and international levels.
    The Greensboro Police Department assisted the DEA with providing 
statistical data on arrests and seizures in our area which ultimately 
led to this area being classified as a High-Intensity Drug Trafficking 
Area initiative. Since being formed, the Investigative Interdiction 
Unit has been very successful in their approach to the detection and 
arrest of narcotics traffickers who utilize area hotels, motels, 
shipping corporations, and storage facilities.
    During the month of November 2018, the Interdiction group noticed a 
pattern of packages being shipped through the United States Postal 
Service. The interdiction group works closely with the Postal Inspector 
in the Greensboro area and began an investigation. Through 
investigative methods, the group developed sufficient information to 
initiate a Title III (Phone wire) case on a specific group of 
individuals trafficking heroin and cocaine into the area.
    The group utilized resources from the USPS, DEA, and NC SBI to 
conduct the investigation. After 6 months of investigation, the group 
was able to arrest 16 individuals and seize 4 kilograms of heroin, 1.5 
kilograms of cocaine, 1.5 pounds of marijuana, 8 firearms, and 
$128,250.00 cash. This is a significant outcome for our area especially 
in combating the opioid epidemic.
    In summation, this opioid crisis has left few untouched, with 
Americans dying every day from opioid overdose. Families are impacted 
from children being born with neonatal abstinence syndrome or children 
experiencing trauma as a result of a parent or family member's 
addiction.
    Families are being ripped apart because of the opioid's crisis 
resulting in higher criminal activity. Partnering law enforcement 
agencies are implementing solutions and addressing the problem through 
comprehensive approaches that include but are not limited to 
educational seminars.
    I thank you for this opportunity to testify before this 
subcommittee.

    Mr. Rose. Thank you for your testimony.
    I thank all the witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    To begin, Ms. McCauley, you had mentioned that at Kennedy 
Airport specifically we are looking at 0.01 percent of mail 
being screened. Would it be, then--could we surmise that less 
than 1 percent of the fentanyl coming into that airport is 
seized?
    Ms. McCauley. I wouldn't be able to make that calculation, 
but I would say that they are not screening and identifying 
everything.
    Mr. Rose. OK.
    Ms. McCauley. I should indicate that the 0.01 percent, that 
is what is targeted, in terms of the amount of mail that they 
are looking at. CBP has an agreement with the Postal Service 
that they can also select other mail based on subjective 
assessment as well as risk-based assessments apart from ATS.
    Mr. Rose. Now, you made a series of recommendations. Have 
those been adopted in the roughly 6 months or more since your 
report came out?
    Ms. McCauley. No. Those recommendations are still open at 
this point. One recommendation is closed, but it was on 
unrelated issues involving some information technology servers 
and----
    Mr. Rose. So fentanyl is coming into our country through--
50 percent of our international mail comes to Kennedy.
    Ms. McCauley. Yes.
    Mr. Rose. You made a series of recommendations. If adopted, 
they would have saved lives. Those recommendations are still 
open?
    Ms. McCauley. They are still open. We have a follow-up team 
out at JFK, and they are looking to see what more----
    Mr. Rose. We wonder why people hate government. A year. 
Recommendations still open. Canine teams, technology, 
resources.
    Ms. McCauley. Yes.
    Mr. Rose. They have not shown any sense of urgency to adopt 
these. Is that correct?
    Ms. McCauley. Our teams that are on the ground now are 
looking into these issues. They are seeing some improvement. 
They are going to be reporting out this fall in terms of----
    Mr. Rose. Some improvement. Are they adopting the 
recommendations, ma'am?
    Ms. McCauley. Some improvement, yes----
    Mr. Rose. I will make sure to pass on that next time I have 
to go to a funeral from someone who has overdosed from 
fentanyl-laced heroin.
    Ms. Brennan, I want to get an understanding of how fentanyl 
is coming into New York City. It is coming in through Kennedy. 
How else is it coming?
    Ms. Brennan. Well, there are two ways. Bulk fentanyl tends 
to come in overland from across the Southwest Border. Often it 
is mixed into loads of heroin. So if we seize a truck or a car 
that is carrying a very large load--100 pounds, 50 kilos, 
whatever--some of those kilos might be fentanyl, some might be 
heroin.
    Mr. Rose. OK. But how is the pure fentanyl getting to 
Mexico?
    Ms. Brennan. The pure fentanyl, as far as I know, there are 
two different methods. To a certain extent, the fentanyl itself 
is transported from China. Also the precursor chemicals are 
coming into Mexico, and then they are producing it there.
    Mr. Rose. OK. Thank you.
    Ms. McCauley, there was an interesting note that I saw in 
your report saying that our targeting system relies on getting 
advance data from foreign countries.
    Ms. McCauley. That is correct.
    Mr. Rose. But that means we need to have an agreement with 
foreign postal offices to do so. Do we right now have an 
agreement with China to get advance data on inbound mail?
    Ms. McCauley. It is my understanding that we don't have an 
agreement with China.
    Mr. Rose. Have we approached China to try to institute that 
agreement?
    Ms. McCauley. I don't know that----
    Mr. Rose. OK. You can count that we are going to track that 
down.
    Dr. Pardo, I want to look to the future a little bit here. 
Does China right now have a monopoly on the production of 
fentanyl?
    Mr. Pardo. In terms of the illicit production of fentanyl, 
according to law enforcement, the bulk majority that we are 
seizing is coming from China. That said, I mean, this stuff can 
be made very easily elsewhere.
    Mr. Rose. Has China done enough to crack down?
    Mr. Pardo. China has responded in some ways. They have 
controlled new chemicals at our behest. Most recently, they 
have adopted a generic ban on all fentanyl-related structures. 
We don't know what the impact of that will be. It will take 
time in order to ascertain how effective that is.
    But, nonetheless, fentanyl itself is still predominant in 
drug seizures and overdose deaths. Fentanyl is a medication. 
Fentanyl is produced legitimately in China as well.
    Mr. Rose. Is there the potential for fentanyl to also be 
weaponized? I know that we saw this in 2002 when the Russians 
attempted to overtake an area where hostages were held and they 
used a derivative of fentanyl.
    Mr. Pardo. Yes, that is one recent event in which fentanyl-
related analogues were used in kind of a weaponized system. To 
my knowledge, I am not aware of anybody doing that, but that is 
not something I have researched.
    Mr. Rose. OK.
    What other countries should we look at as potential places 
where fentanyl could be produced on their own?
    Mr. Pardo. So, beyond Mexico and China right now, which are 
the largest exporters to the United States, according to law 
enforcement data, India is on the horizon. Late last year, 
there were two substantial seizures of fentanyl that were 
inbound, leaving India, inbound to North America, destination 
unknown. But that is the next place where it could go. India 
has a substantial pharmaceutical industry and lacks resources 
to police it.
    Mr. Rose. Thank you for your time and your answers.
    I now recognize Ranking Member Walker.
    Mr. Walker. Thank you, Mr. Chairman. Excellent questions 
there.
    Deputy Chief Hinson, the numbers you stated in your 
testimony, if I am reading this correctly, are very eye-opening 
to just how bad the crisis is throughout the country. I think 
the one number that stood out or popped to me was that, if I 
get this correctly, in the past 5 years, the Greensboro Police 
Department has seen a 500 percent increase in 9-1-1 calls 
related to overdoses related to opioids.
    Is that number accurate? Did I get that correctly?
    Mr. Hinson. Yes, sir. That is correct.
    Mr. Walker. My question, then, is, how does your department 
handle this increased workload when you are seeing those kinds 
of spikes?
    Mr. Hinson. Well, the first thing, we are going to make 
sure that we send out our officers with the appropriate 
staffing level. I would just also say this. We can't measure 
the dedication that our professionals have. They go out each 
and every day, and they answer the calls for service. They do 
that with a high level of just dedication to get that done.
    But, also, we look at their training component as well. We 
make sure that our officers are trained properly so that they 
can go out and respond to these calls on a daily basis.
    They do it very well. They do it in such a way that we are 
trying to save lives. In order to do that, we have to continue 
to try to educate our community about the dangers of opioids.
    Mr. Walker. Speaking of dedicated professionals, you are 
closing in on three decades. What trends have you noticed in 
drug trafficking, including types of drugs, volumes, the 
origins? Can you elaborate on that a little bit?
    Mr. Hinson. Well, I can talk about that just a little bit. 
But the trends are--we are seeing a lot of drugs coming from 
Mexico into our community, and other countries as well--
Thailand, Turkey.
    What we are trying to do is to continue to work with the 
DEA, the FBI, and Homeland Security, because without those 
particular agencies, we would not be as successful as we are. 
Our task force officers are working with them daily, weekly, 
gathering intel, and this intel proves to be invaluable, 
because we are able to identify individuals, groups that are 
bringing these drugs into our community.
    As I stated before in my testimony, we arrested 16 
individuals as a result of a wire case. That initiated from 
packages being brought into the Postal Service system, and once 
those were detected, we were able to begin an investigation, 
and it was pretty far-reaching. As a result of that, we were 
able to take a large quantity of drugs off of the street.
    Again, it is all about accountability. We have to continue 
to be proactive, and we have to hold these individuals 
accountable that are bringing these dangerous drugs into our 
community. Not only--once we make those charges, we are looking 
for prosecution to the fullest extent of the law.
    Mr. Walker. OK. Well, then let me ask that. It leads to my 
next question. You guys are obviously on the front line. What 
Federal-level support do you need to go after these guys and 
the root systems?
    You mentioned several countries there, other foreign 
countries, that are arriving with these substances in 
Greensboro. What do you need from the Federal level?
    Mr. Hinson. I would say right now, sir, everything is going 
fine. Our communication is great. Anytime that we need anything 
from any one of those agencies, they are there to assist us. We 
are there to assist them. We have a great working relationship, 
a great partnership, and it has proven to be very productive.
    Mr. Walker. Unpack that a little bit for me. Talk about the 
relationships that you guys have with the DHS, the FBI, the 
DOJ. Can you paint us a little picture there?
    Mr. Hinson. Well, we have task force officers that are 
assigned to each one of those agencies, and they work very 
closely with those agencies. They take that information and 
they bring it back to our agency, and we kind of peel back that 
information, so to speak. Then we continue to work together by 
identifying those individuals that are bringing drugs into our 
community.
    The identification piece is very important, because without 
the exchange of communication with these particular agencies, 
we would not be able to identify these individuals. Once we 
identify those, then we put parameters and operations in place 
so we can make arrests.
    Mr. Walker. You are seeing some success in combating this. 
Talk to me----
    Mr. Hinson. Yes, sir.
    Mr. Walker [continuing]. About a program--and I have 40 
seconds left. Just talk to me a little bit about something 
specifically that you feel like is the reason that you guys 
are--you still have a long way to go, but are starting to get a 
handle on this.
    Mr. Hinson. Well, I will just say, one particular program 
that we have initiated to specifically try to save lives is our 
Vice/Narcotic detectives, they are making contact with overdose 
victims each and every day.
    We are not doing that to do that in such a way to belittle 
them. We are doing that in such a way to let them know that, if 
they need help, we are there to help them. We can refer them to 
various treatment centers. But we can also obtain information 
from them that could lead to further arrests.
    So that has proven to be very, very beneficial, and just 
working with the other agencies in our community. I believe 
that it is all about building a foundation. Continuing to build 
that strong foundation, we can definitely make some strides as 
it relates to the opioid crisis.
    Mr. Walker. Deputy Chief Hinson, your service is making 
this country better. I just want to say thank you.
    Mr. Hinson. Thank you.
    Mr. Walker. I yield back.
    Mr. Rose. Thank you, Ranking Member Walker.
    I now recognize Chairwoman Rice from the great State of New 
York.
    Miss Rice. Thank you, Mr. Chairman.
    Ms. Brennan, I would like to start with you. You mentioned 
the dark web. If we look back at the history of the dark web 
vis-a-vis drug sales, so it starts with the Silk Road, which 
was the original Darknet market which came on-line in 2011 and 
only sold, I think at that time, some psychedelic mushrooms and 
stuff like that.
    So when that was taken down in 2013, it was believed, after 
the takedown and the jailing of the founder, that that was 
going to serve as a deterrent to future imitators. But fast-
forward to 2017, we had the takedown of two of the biggest 
successors of Silk Road, AlphaBay and Hansa market. At that 
time, there was 5 times as much traffic happening on the 
Darknet as there had been at the time of the takedown of the 
Silk Road at its peak. The Wall Street Market shut down in May 
of this year had, I believe, one-seventh as many vendors as 
AlphaBay. So we have seen kind-of this up, down, kind-of like 
that.
    Now, I know that in early 2018, when the FBI created the 
Joint Criminal Opioid Darknet Enforcement team, or J-CODE, this 
was specifically meant to address this kind of stuff from the 
Darknet. You also had the Justice Department focusing on 
techniques that create distrust on the dark web for buyers by 
convincing them that sellers are actually giving info to law 
enforcement.
    So kind-of with that backdrop, can you just talk about your 
experience dealing with this whole dark web, just expound on 
that a little bit more, and what your experiences working with 
the Federal authorities are, and any thoughts you have on how 
we can address? Because the web, the internet is not going 
away, so we have to figure out a way to stay on top of that.
    Ms. Brennan. I think you have hit on a key point.
    The dark web, what we see is a source usually of fentanyl 
analogues, which are little tweaks on the fentanyl molecule, 
often unregulated, that come in in very high concentrations. 
Those are the ones we see coming through JFK, through all kinds 
of different services that you can access on the dark web, 
offering such things as a free product in case the initial one 
becomes seized. Often the payment is in bitcoins.
    For all those reasons, it is very, very difficult to track. 
The entrepreneurs on the web are far more advanced, usually, 
than our investigative staff. It is hard to get the kind of 
expertise at the kind of salary that we are able to pay to 
really penetrate this web.
    I think you have hit on one of our key challenges, 
particularly with the onslaught of things coming in through 
these shipments through JFK. You can get an analogue that 
contains enough to kill many people in a greeting card. I mean, 
it is just a tiny package because it is a tiny, concentrated 
amount.
    So I think we need to continue our coordinated efforts in 
this regard. Any support that can be added to our efforts would 
be greatly appreciated. We need these combined task force, 
because there is a lot of knowledge in the various agencies, 
Federal agencies in particular. Working with local prosecutors 
or local police forces, I think it can really advance on this.
    Miss Rice. So in your opinion, who do you think, what 
agency, if one exists, has that kind of expertise that you are 
talking about that your specific agency is lacking because of 
whatever it is, the salary limits or----
    Ms. Brennan. Well, the FBI has been leading the way on many 
of these efforts. His has significant resources and significant 
intelligence.
    I don't think there is any one source. What I have seen 
is--actually, it is individual. There are unique individuals 
who are absolutely committed to enforcement and like doing this 
work. So I can't pinpoint any one agency, although I do believe 
the FBI is taking the lead.
    Miss Rice. So this committee is also focused on analyzing 
bitcoin, which is this kind-of new--we have to figure out what 
to do in that space as well.
    But I want to commend you, because you and I go back a long 
way from when I was DA in my home county, and you have always 
been such a fierce advocate for just aggressive techniques and 
cooperating with other agencies. I think that is in large part 
why you have been as effective as you have been.
    So I want to thank you. It is good to see you here in the 
District of Columbia.
    Ms. Brennan. Thank you very much.
    Miss Rice. I just have one additional quick question for 
Mr. Pardo.
    You talked about drug policy data collection. How can we do 
it better?
    Mr. Pardo. So right now we are limited in terms of 
understanding what or how these markets are transitioning away 
from heroin toward fentanyl. There are data lags in overdose 
deaths, in seizure data. We really don't know what is going on 
today given that what the CDC is putting out is 2 years later. 
We have data now in 2018. The lags are really kind-of what is 
bothering here.
    In addition to that, the other limitation is that we don't 
know what we are measuring given that these new analogues don't 
exist, there is no referent in order to test them.
    So using the mass spectrometry to actually understand what 
are in the seizures, we are doing the appropriate toxicological 
screens to determine whether or not that individual consumed 
carfentanyl or some sort of other analogue is important. That 
will allow us to better understand how these substances are 
moving from markets to markets.
    Miss Rice. We have to focus on that. I would like to 
continue this conversation with you after this, because that is 
the key. You have to have the data to understand where to go in 
the future.
    Thank you very much, Mr. Chairman.
    Thank you to everyone here.
    Mr. Rose. Thank you, Madam Chairwoman.
    I would also like to acknowledge on behalf of the committee 
your extensive work over the course of your career in this 
field as a prosecutor and also as a legislator.
    With that, we now recognize Ranking Member Higgins from the 
great State of Louisiana.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Chairman, according to the DEA, China is the main 
source of both illicit manufacturing of pure fentanyl as well 
as the precursors that are being shipped to other countries 
like Mexico for manufacturing of fentanyl.
    Fentanyl is illicitly manufactured in China and either 
shipped directly into the United States or processed at 
clandestine labs in Mexico primarily and smuggled by drug 
cartels into the United States.
    The STOP Act passed in the 115th Congress requires advanced 
electronic data for all international mail shipments entering 
the United States to help identify suspicious packages.
    Ms. McCauley, that is a phenomenal amount of mail to check 
electronically. Would you agree it is a tremendous task we are 
asking our professionals to accomplish?
    Ms. McCauley. Yes.
    Mr. Higgins. Dr. Pardo, let me ask you about technology 
that you, perhaps, know of, sir. To the best of your knowledge, 
is there a commercially available technology that exists right 
now that could move us closer to 100 percent scanning at our 
mail facilities?
    Mr. Pardo. One hundred percent? Probably not. There are 
enhanced mass spectrometry handheld machines, infrared 
spectrometry, that allow for kind-of quick detection, that 
allow for a line operator to scan a package and determine what 
powder is in that package.
    That said, the problem with the analogues is that it only 
tests against the known universe of chemicals. The chemical 
that is designed last week, we don't know about it yet. So that 
machine is not going to detect it. So that is a new challenge 
that we are facing, and there are really no solutions right 
now.
    Mr. Higgins. So slight changes in the formulation can 
prevent detection of the----
    Mr. Pardo. It makes it much harder to detect, yes.
    Mr. Higgins. Right. That makes sense.
    Well, medical studies concur that a lethal dosage of pure 
fentanyl can be as low as 250 micrograms. Just to put that in 
perspective for America, that is less than a grain of sand.
    Mr. Hinson, thank you for your service, my thin blue line 
brother.
    I would like to ask you. You had referred to an 
investigation that yielded results and made arrests and seized 
some drugs. Congratulations.
    Are you aware of international cooperative detective work 
that can help our Postal Service, our incoming inspection 
endeavors, to catch incoming shipments? Is there a cooperative 
effort internationally that you are aware of from the street 
level that exists or that can be enhanced?
    Mr. Hinson. Well, I would just speak what our agency is 
doing, sir.
    We do have an outstanding relationship with the Postal 
Service inspection. We frequently utilize our canine to go and 
visit----
    Mr. Higgins. Isn't fentanyl, in its purest form, dangerous 
for canines?
    Mr. Hinson. Sir?
    Mr. Higgins. Isn't fentanyl, it is dangerous for canines, 
is it not?
    Mr. Hinson. Yes, sir.
    Mr. Higgins. We are going to try and help America 
understand how dangerous this stuff is.
    Mr. Hinson. OK. All right.
    Mr. Higgins. To inhale a grain of sand is pretty easy, for 
anybody who has been to the beach.
    Mr. Hinson. Yes, sir.
    Mr. Higgins. So when a police officer finds a suspicious 
package that we suspect might be fentanyl, it is almost like 
discovering a bomb in the trunk of a car, is it not? You have 
got to be very careful with it.
    Mr. Hinson. You have to be very careful, sir, and use 
caution.
    Mr. Higgins. So large seizures of drugs, when America reads 
about that in the newspaper, so many tons of drugs seized in a 
truck on a highway or a boat coming into port, what America 
doesn't know generally is that is because of detective work. 
That is not blind luck. There is some work that was done that 
was tracking that vehicle or that boat.
    Mr. Hinson. Yes, sir.
    Mr. Higgins. Then the investigation, you had reasonable 
suspicion based upon the detective work, and, bam, you seize 
the drugs.
    Is there a cooperative effort like that for fentanyl, for 
any panelist, can you answer this, at the international level 
regarding tracking incoming fentanyl in its purest form into 
our country?
    Mr. Hinson. Well, I will say this. The work that we do, of 
course, is on a local level, and our partnerships with the 
various Federal agencies allow us to also look at other 
international components of this, drugs coming in from Mexico, 
Thailand, Turkey, or whatever the case way be. So oftentimes, 
once we make these arrests local, we will again get additional 
information of the source of the original----
    Mr. Higgins. You will feed that to your partners?
    Mr. Hinson. Sir?
    Mr. Higgins. You will feed that data to your partners?
    Mr. Hinson. Yes, sir. We will feed that.
    Mr. Higgins. In the interest of time, Mr. Chairman, Dr. 
Pardo perhaps can answer the question, and I will yield after.
    Mr. Rose. Of course.
    Mr. Pardo. In terms of the international law enforcement 
and supply reduction efforts, there are multilateral 
institutions. The International Narcotics Control Board is one 
of them. They do try to take in information in terms of 
seizures in order to allow other law enforcement agencies 
across the globe understand what is been seized where, in order 
to really help with the metrics, the risk metrics.
    The World Customs Organization may also be one additional 
multilateral organization that could be helpful in terms of 
sharing information about what is being seized where.
    Mr. Higgins. I thank you all for being here today.
    Mr. Chairman, I yield. My time has expired.
    Mr. Rose. Thank you, Ranking Member Higgins.
    The Chair now recognizes Mr. Correa from California.
    Mr. Correa. Thank you, Mr. Chairman.
    First of all, I want to thank all the witnesses for being 
here today and the good work you do for our citizens.
    Chief Hinson, I just want to say that I agree with you. I 
think all of us have been touched by this scourge in our 
society. My boy played Little League a number of years ago, and 
one of his good friends, a star pitcher, we thought was going 
to be the next major leaguer. You know what? He is very much 
addicted to the scourge.
    Tragedy after tragedy in our communities, and every day I 
pray that my kids are not victims. It touches all of us.
    As I listened to the discussion here, I am reminded of the 
history of addiction and the situation we have today. 
Prescription drugs right now in California, the No. 1 killer, 
overdoses in California. Of course, ever increasing, of course, 
is synthetic opioids.
    To think about the history, 30, 40 years ago most of the 
drugs coming into this country were through the Caribbean. A 
lot of drugs coming through the Caribbean. We were very 
successful in interdicting those drugs. The shift of trade went 
inland. So you had Central America and Mexico now being the 
main area of trade, destabilize those countries where there are 
drug dollars and a lot of scourge.
    We are very good now. We are kind-of clamping down on that. 
According to my Coast Guard information officers, now most of 
the trade is beginning to emerge in the eastern seaboard. Now 
you begin to have not 1 or 2 pounds, but thousands of pounds, 
thousands of pounds coming in through the eastern seaboard, 
cocaine laced with fentanyl.
    One of you just mentioned India is the next place that is 
emerging. Canada, I notice in this information.
    So I almost feel like we are fighting a fight that we 
continue. Every time we bottle something up, we have got the 
internet that pops up. You have bitcoin that pops up.
    So my question to all of you is, how do we work with Nancy 
Reagan, who said just say no? How do we as a Federal Government 
help you at the local level generate educate our kids so they 
just say no?
    Those kids out in the street, I don't think recognize the 
dangers, or adults, like Mr. Higgins said, where a culture that 
maybe is changing just too much too fast.
    How do we work with you in those local community groups, 
churches, schools, to begin to again emphasize we have to say 
no?
    Ms. Brennan. May I?
    Mr. Correa. Yes, please. It is a question to all of you.
    Ms. Brennan. What I would like to just point you to and 
suggest that you deeply explore is some of those communities 
where we are seeing progress. In Staten Island, Chair Rose was 
just in Staten Island a couple weeks ago where Staten Island 
was announcing a 40 percent decrease in overdose deaths and in 
naloxone use over the last 6 months, the past 6 months of this 
year. Long Island has reported significant decreases both in 
overdose and in naloxone use.
    There are pockets across the country where we are seeing 
success. The only thing that I have been able to see is a 
concerted effort kind-of throwing everything we have got at 
this problem.
    I suggest that if we can really drill down into those 
programs, the DAs in both Staten Island and Nassau County and 
Suffolk County have run very effective that is going on across 
the United States, Dayton, Ohio, has reported great success, if 
we can drill down and take a look at what is working and then 
try to match it up to other communities that are similar, we 
might see success.
    Mr. Correa. Chairman, I am running out of time. But I think 
that is what we need to do, is try to find those model programs 
that are working and duplicate them across the country. 
Because, again, these drugs pose such danger to our front-line 
officers, men and women, whether it is the airports, on the 
streets, when they come in contact with this scourge.
    I think we have just got to figure out how to double down, 
as you said, Ms. Brennan, and make sure kids know the dangers.
    Mr. Pardo.
    Mr. Hinson. I will be quick.
    I will just say this. I think we have to have those 
conversations with our kids at a very early age and to let them 
know the dangers of this and to continue to work with various 
programs, such as the Guilford County solution to the opioid 
problem, partnering with them. They have advocates that will go 
out and make contact with individuals who are suffering from 
the opioid crisis.
    Because many times many of these individuals feel as though 
they are alone and no one wants to walk with them down this 
road of recovery. But you have many agencies that are willing 
to do this.
    I think that it is very important that we continue to work 
with those agencies and support those agencies, because we 
definitely can't arrest our way out of this situation, but we 
can definitely work with the many partners to make a 
difference.
    Mr. Rose. Thank you, Mr. Correa.
    Ms. Brennan, thank you for noting the incredible success we 
have had on Staten Island. I believe what--I know what has been 
accomplished on Staten Island is that they have figured out how 
to build a structure whereby the key partners are regularly 
gathering around a table and it has become operationalized, law 
enforcement, hospitals, social service providers, district 
attorney, EMS, nonprofit sector, faith-based institutions. It 
is not just a one-off press opportunity. We are seeing the 
numbers.
    But I would also like to say that as these grant programs 
begin to still proliferate, and they rightfully should, and we 
are building up these systems, it only shines a light on how 
important fentanyl is. Because the issue with fentanyl is that 
people are not getting a second chance. We are not getting that 
opportunity to bring people into recovery. We are not getting 
that opportunity to integrate people into programs that we know 
work. It kills them right away.
    What we see right now, to put it into the plainest terms 
for the American people, is one nation, China, producing 
something that is killing over 30,000 Americans a year, 30,000 
Americans a year, produced by one country. If that doesn't 
shock our consciousness, I don't know what does.
    With that, I would like to recognize Mr. Guest from 
Missouri.
    Mr. Guest. Thank you, Mr. Chairman.
    To our witnesses----
    Mr. Rose. Mississippi. Mississippi. I am an ignorant New 
Yorker. My mistake.
    Mr. Guest. To our witnesses, I want to thank you for being 
here today. I want to thank you for playing such an important 
role in an epidemic that we see touch all corners of our 
country.
    Dr. Pardo, I want to ask you a couple questions. From your 
report, I see on page 4, you give some statistics there. 
Actually then continuing over on page 6 there is a table. But 
on page 4 of your report, that you note that the Customs and 
Border Protection agency in 2013 seized approximately 1 
kilogram of fentanyl. Then we see 5 years later, in 2018, we 
see that number has jumped to 1,000 kilograms. So within a 5-
year window we see a 1,000 percent increase as far as seizures 
along our Southwest Border.
    Then in 2018, we see here on the table that you have 
included in your testimony, on page 6, that there was a total 
of roughly 994 kilograms that were seized. Of that, 85 percent, 
roughly, comes across our Southwest Border.
    Then you continue on, on page 8. You state in here, in 
recent years, there has been a noticeable increase in the 
amount of fentanyl seized at the U.S. border by law enforcement 
and Mexican authorities. Mexican drug trafficking organizations 
are importing fentanyl and precursors from China. Then you even 
go on later, and you talk about clandestine laboratories that 
have been seized in Mexico.
    So, in addition to China, which is where I understand a 
large amount of the fentanyl is produced or where the chemicals 
or precursors are produced, it seems like we are seeing a 
growing role in Mexico's importation, illegally, of course, of 
fentanyl.
    So my question to you, Dr. Pardo, is what can we do, in 
addition to working with law enforcement authorities in China, 
what can we do to work with our partners in Mexico to try to 
stem Mexico as being a distribution center of fentanyl where we 
know that that fentanyl, once it enters the United States, is 
then shipped across our country?
    Mr. Pardo. That is a good question.
    Mexico seems to be kind-of not as a big of a problem as 
China. But that said, we do have good working relationships 
with Mexico. We have had decades of collaborative drug 
interdiction efforts with joint--with the Marines down there, 
with DEA here.
    That said, this is novel. This is new. The challenge that 
is posed by fentanyl is such that a cartel really could cut a 
lot of the cost, operating cost, moving away from poppy, which 
takes 3 months to harvest, which requires labor, which you have 
to rely on enough sun and water to generate enough harvest. You 
can produce synthetic opioids pretty much anywhere in a couple 
of days in a lab in, say, Mexico City.
    So that really changes the way we need to think about this 
problem in terms of supply interdiction. It is going to take 
more intelligence gathering. It is going to take kind-of 
innovative thinking in terms of working with our partners down 
there and trying to understand how the sourcing works, how 
these distribution channels work, who is doing what.
    I think the long-term prospects of poppy declines in Mexico 
is a real potential. If the cartels see this as one way to 
really boost profits, which it definitely is, then Mexico might 
no longer be a poppy-producing country. It might be that you 
see more synthetic opioids coming from that country.
    Mr. Guest. Just as we have seen Mexican drug cartels many 
years ago began moving into the production of methamphetamine, 
do you see a model or a situation in which Mexico at some point 
could be really just as big a threat as China in the fact that 
they would be able to synthetically produce that, they would be 
able to produce it much closer to our communities, and then use 
the established drug cartels to then smuggle the fentanyl in, 
as they are doing now and as they have done with 
methamphetamine and cocaine and marijuana before that?
    Mr. Pardo. It is possible long-term. The difference, 
though, right now is that it doesn't seem that there are a lot 
of analogues coming out of Mexico. The analogue generation 
seems to be part of China, given that there is a large 
pharmaceutical industry, capable individuals with the knowledge 
to develop these new substances.
    It doesn't seem like Mexico has learned that yet. They are 
producing fentanyl, just classic old fentanyl.
    So that does change some of the kind-of risk problems. 
Since carfentanyl is much more potent then fentanyl, it can 
shipped by mail very easily. So the challenges from China are a 
little bit different.
    That said, the long-term prospects of Mexican cartels being 
able to learn the synthesis methods for carfentanyl or other 
opioids are there. I mean, it just makes enough research to do 
it.
    That said, it doesn't have as large of a pharmaceutical 
industry as China, so it might not ever really get to that 
point where it becomes as large. But the long-term prospects 
are something to consider.
    Mr. Guest. Dr. Pardo, I am over time, but I want to ask one 
quick question, and then I will yield back.
    What can we do to better secure our border to stop the 
flow, not just the fentanyl but other illegal drugs from coming 
into our country?
    Mr. Pardo. That is going to be a challenge. It always has 
been a challenge with cocaine and heroin.
    Efforts by CBP have been Herculean in many respects. They 
do see a lot of product, especially given that these are points 
of transit. A lot of trade happens through this border.
    It is going to be increasingly difficult given the potency 
of these substances. It just makes it easier to conceal a 
smaller amount of the same morphine milligram equivalent over 
the border.
    Mr. Guest. Mr. Chairman, I yield back. I apologize for 
going over my time.
    Mr. Rose. I apologize for messing up which State you are 
from, so I guess we are even.
    I now recognize Ms. Clarke from Brooklyn.
    Ms. Clarke. Thank you very much, Mr. Chairman. I thank our 
Chairpeople, our Ranking Members of this very important 
hearing. I want to thank our expert panelists today.
    We know that the opioid crisis is devastating our Nation, 
including our beloved New York City, where both the Chairman 
and I hail from. In 2017, there were 3,224 opioid overdose 
deaths in New York State. That is a rate of 16.1 deaths per 
100,000, higher than the National average of 14.6 deaths. That 
is why I fought hard for a comprehensive approach to this 
challenge.
    In the last Congress, I joined with my colleague 
Representative Adam Kinzinger of Illinois to introduce the 
Opioid Addiction Action Plan Act. My bill required the Center 
for Medicare and Medicaid Services to create a comprehensive 
strategy to combat the crisis, including a plan to reduce the 
cost of opioid overdose reversal drugs. Thanks to my role on 
the Energy and Commerce Committee, my bill was signed into law 
last October as part of the SUPPORT for Patients Communities 
Act.
    But DHS also has a critical role to play in tackling the 
crisis. At the end of the day, CBP is charged with stopping the 
flow of deadly fentanyl from China, which arrives by mail in 
airplanes. Meanwhile, our Coast Guard is tasked with preventing 
the illicit import of opioids by sea. DHS must give this crisis 
the priority it demands until the flow of opioids is ended.
    So my question is to you, first of all, Ms. Brennan. You 
said in your testimony that only the first wave of the crisis, 
the flood of addictive prescriptive drugs, involved drugs 
manufactured in the United States. The newest threats, from 
Chinese fentanyl to synthetics, often come from abroad.
    Given New York City's role as a hub of global commerce and 
international travel, we serve as a key entry point for many 
opioids. What Federal resources would help our city's 
facilities, such as the international mail terminal and JFK, 
better prevent opioid importation?
    I want to extend that to you as well, Ms. McCauley.
    Ms. Brennan. From our local perspective, we do work closely 
with CBP and with Homeland Security Investigations sometimes. 
Usually we are working the cases backward. We find the 
analogues on the street. We find out who is supplying them. We 
realize that the supply is coming in through the mail. Then we 
try to contact CBP to match up the person who is receiving with 
whatever package is coming in.
    These are teensy packages. It comes in in what purports to 
be a package of lingerie or a greeting card, because the 
concentrations are so high that the amount coming in can be 
very, very small.
    So literally for CBP, I do think it is like looking for a 
needle in a haystack. But they have had significant outreach 
efforts with us most recently. We have had several meetings 
with them and with Homeland Security Investigations to try to 
tighten up our partnership and for us to understand our access 
to them. That has been very helpful.
    The DEA is extraordinary. They, too, have been working very 
hard to penetrate the dark web, which is where this originates. 
So I think strengthening all those partnerships and supplying 
adequate resources.
    Each of these new fentanyl analogues has a new structure. 
Because they are in such higher concentrations, it takes a 
significant amount of time to identify them. So the CBP's 
guidelines don't fit with the amount of time it takes.
    So I think we can do some tweaking there. But many of our 
partnerships are very, very strong, and I commend the excellent 
work they do.
    Ms. Clarke. Ms. McCauley, your observations?
    Ms. McCauley. We haven't done any work in that area in 
terms of CBP outreach to local communities, so I couldn't speak 
to that.
    Ms. Clarke. What about your observations just in terms of 
the port of entry in terms of your interactions? Are there 
interactions with CBP?
    Ms. McCauley. I am not----
    Ms. Clarke. So the airports, are you seeing any 
collaboration there with respect to----
    Ms. McCauley. No, we did not look at that as part of our 
audits.
    Ms. Clarke. OK. Very well.
    Ms. Brennan, the opioid crisis is a homeland security 
challenge, but foremost it is a public health crisis. We must 
ensure our criminal justice system treats it as such as we have 
had some challenges in the past.
    As a prosecutor, could you discuss the historical mistake 
of treating users like criminals rather than victims in need of 
treatment, particularly when they hail from communities of 
color?
    Ms. Brennan. First of all, I could not agree with you more. 
You are absolutely right. I do think that law enforcement has 
certainly embraced that.
    Historically, you are completely accurate in that addiction 
was viewed as a failing, and people who were addicted to drugs 
were not viewed as having a disease but were viewed as 
criminal. That was a mistake with a cascade of consequences 
that we are still living with.
    But that having been said, I think if you look at--what I 
am familiar with is New York City. The change in strategy, we 
focus at the top of the supply chain. We try to take off the 
most dangerous drugs, those that are causing death. We work to 
rehabilitate those people whose crimes are caused by their 
addiction and to get out a very clear prevention message.
    So I think our strategies are different, but I certainly 
acknowledge the problem that you have recognized.
    Ms. Clarke. Thank you very much, Mr. Chairman. I yield 
back.
    I thank you for your testimony and your dedication and 
service.
    Mr. Rose. Thank you, Ms. Clarke.
    I would now like to recognize Mr. Langevin from the great 
State of Rhode Island.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our panel of witnesses for being here 
today.
    Dealing with the opioid issue is obviously both a National 
security concern, it is a public health concern, it transcends 
many levels and can affect almost anyone from any type of 
background. It really knows no boundaries.
    It is certainly disturbing that this is something that we 
have seen in all of our communities. My home State of Rhode 
Island has been affected by the overdose issue. What is scary 
is that becoming addicted to opioids can, in fact, happen just 
through using regular opioids for legitimate purposes. Based on 
your chemical makeup, someone can get addicted very quickly, 
even after a very short time.
    It is even more disturbing, though, if these opioids being 
smuggled into the country are being done with a coordinated 
intent, if that is what it comes down to, of trying to get this 
into our communities and a number of people that affected and 
killed.
    If this is something, a targeted coordinated effort, 
whether it is smugglers or something that is nation-state-
related, it is disturbing. It has all of our attention. We have 
to double down and make sure that we combat this with all the 
tools and resources we have at our disposal.
    So, Ms. McCauley, I want to start with you. I want to 
address a gap that I have seen and that the Joint Task Force to 
Combat Opioid Trafficking Act, which I introduced with Chairman 
Rose, Mr. King, and Mr. McCaul, is intended to address.
    So in your experience examining CBP mail screening 
operations, how is information from other law enforcement 
agencies fed into their processes? In other words, if Deputy 
Chief Hinson's department finds a pattern in mail that they 
have received, what processes exist to feed that information 
back into international mail screening guidelines?
    Ms. McCauley. I can say that CBP uses its Automated 
Targeting System to target high-risk mail coming into the 
country. The ATS is a--it is a decision support system that 
ingests data from foreign airports about the mail that is 
coming in inbound to the country and that data is matched 
against criminal as well as law enforcement and intelligence 
databases using risk-based scenarios to see where the highest 
risks are. So that is the main way in which that type of 
information is used.
    Mr. Langevin. But, again, if you see a pattern somewhere 
else, how is then that information fed back into the system so 
it is more widely dispersed? Is it a good two-way information 
sharing? It is one thing to be told what to look for, but when 
you see a pattern somewhere else, how do you make sure the left 
hand knows what the right hand is doing and that information is 
then fed back into the system?
    Ms. McCauley. I haven't heard of it being used in that way, 
no.
    Mr. Langevin. Well, it should be, but OK.
    Well, I encourage your colleagues in the Office of 
Inspector General to continue to examine these information-
sharing efforts. I believe that the Joint Task Force to Combat 
Opioid Trafficking Act that we have introduced is an important 
step in improving linkages between disparate components of the 
Department and other Federal, State, and local entities.
    But I welcome any additional suggestions you may have. If 
there is anything you want to share with us, you can get back 
to us on that.
    Dr. Pardo if I could, staying on the topic of information 
for a minute. Based on your research, how would information 
gleaned from dark websites, either by law enforcement agencies 
or the intelligence community, regarding opioid trafficking 
make its way to DHS elements responsible for interdicting these 
illicit drugs? Can these links be strengthened?
    Mr. Pardo. That is a very good question.
    We don't quite know how the distribution works. In my mind, 
there could be several typologies of distribution. You could 
have an individual who is in Ohio who imports a kilogram of 
fentanyl over the Surface Web and then distributes it through 
the Darknet. That could happening. I think that might be 
happening. But we don't quite know. We need more research here.
    All that said, there had been indictments, unsealed 
indictments, of Chinese vendors on the Surface Web discussing 
the fact they might be warehousing product here. They send a 
bulk shipment of fentanyl through cargo, mislabeled as some 
sort of other chemical, and it arrives in a facility here. Then 
an order is put on-line to a user or to a buyer here 
domestically. That shipment is then sent from a warehousing 
facility here in the United States, not from China.
    So that poses an additional challenge because it is already 
past Customs. It has cleared CBP's remit, so now it is 
something of USPIS.
    So there needs to be kind-of greater awareness and 
strengthening across all levels of Federal and State law 
enforcement.
    In addition to that, you could use other kind-of metrics to 
inform this. You could use overdose deaths. If we could reduce 
the lag in overdose deaths and understand who is dying when and 
where in kind-of a point of time, an immediate point of time, 
you could then quickly kind-of determine, OK, which packages 
need to be screened to these ZIP Codes given that we are seeing 
elevated overdose deaths in the ZIP Codes.
    There are things that we need to do beyond this. Wastewater 
testing might be an additional tool that warrants 
investigation. Since individuals don't know what they are 
consuming, we just can look at what is being--every time 
someone flushes the toilet, we can determine what metabolites 
are in that water source in the sewer and then actually 
determine, OK, yes, we are seeing carfentanyl showing up in 
Dayton, Ohio, we need to then really be worried about it.
    Shortening that time span between what is reported publicly 
in the data and what is happening on the ground will save 
lives.
    Mr. Langevin. Well, I think it is important to have that 
holistic view of information sharing and get a better 
understanding of how this is getting into our country. Then 
also what we can do to make sure that we are strengthening the 
links in terms of information sharing.
    So thank you, and I yield back.
    Mr. Rose. Thank you, sir.
    I now recognize Mr. Payne from New Jersey.
    Mr. Payne. Thank you, Mr. Chairman.
    Just a general question, anyone on the panel can answer. 
What are the most common routes of trafficking fentanyl into 
the United States? How does the United States respond? I 
apologize if this has already been referenced, but I would 
really like to know that. Anyone can weigh in.
    Ms. Brennan. I will just talk about the roots that we see 
in New York City. We get very large shipments, and the very 
large shipments of fentanyl come in across the Southwest 
Border, typically over land routes into New York.
    The fentanyl analogues, which are more concentrated and 
more potent, there are just little changes on the fentanyl 
molecule, but those we see tend to be available often over the 
dark web. They come in in the major packaging centers, package 
centers at JFK, where there are hundreds of thousands of 
packages coming in each day, and they are in much smaller 
quantities.
    That is the kind-of overall arching picture that we see.
    Mr. Payne. Is it more difficult being able to identify it 
because of the smaller packages?
    Ms. Brennan. Absolutely. It really is. It is a smaller 
package, and there are hundreds of thousands of packages coming 
in.
    So it also gets into the supply chain, the distribution 
chain, in a much more diffuse way. So there are lots of 
different criminal organizations which may access it that way.
    If you have large amounts coming in, it is generally going 
to be delivered to criminal organizations that have the 
wherewithal to pay for it and then distribute it. So it is much 
more concentrated and much easier to cut off.
    Mr. Payne. You said that one of the major routes is the 
Southwest Border. Are the illicit synthetic opioids a major 
stream of revenue for the Mexican cartels?
    Ms. Brennan. Well, definitely. The drugs that we are 
seizing are coming from the Mexican cartels.
    Mr. Payne. OK.
    Well, Mr. Chairman, in the interest of time, I will yield 
back. Thank you very much for the panel's witnesses here today.
    Mr. Rose. Thank you, Mr. Payne.
    Dr. Pardo, just a quick thing. You had mentioned that there 
was--or in your testimony--that there was a previous influx of 
fentanyl in the early 21st Century, and we stopped that. Could 
you just speak to that very quickly?
    Mr. Pardo. Sure. So in our research, we have documented 
that we are aware of 4 previous outbreaks of fentanyl in the 
United States going back as early as 1979. The most recent was 
the 2005 to 2007 outbreak, lasted 2 years, coming from Mexico, 
one lab in Mexico.
    Federal response was very quick. Naloxone was provided to 
users on the street. DEA worked very aggressively to find the 
source, worked with Mexican counterparts to identify the lab 
and shut it down.
    The difference between all prior outbreaks and today's is 
that it was a single source, a single chemist. Today it is 
atomized. There are multiple sources in China, many firms. I 
mean, they have thousands of pharmaceutical firms, chemical 
firms. It is going to be very difficult to----
    Mr. Rose. You think that there are thousands of Chinese 
pharmaceutical firms that are taking part in this?
    Mr. Pardo. Legitimate pharmaceutical firms, yes. China 
recognizes about 5,000 active pharmaceutical ingredient 
manufacturers. Of those, we don't know how many are producing 
fentanyl either off book or illegitimately.
    Mr. Rose. OK. Thank you.
    With that, the Chair now recognizes Ms. Underwood from 
Illinois.
    Ms. Underwood. Thank you, Chairman Rose.
    In the United States, nearly 130 people die from opioid-
related fatalities each day. In Illinois alone, from 2014 to 
2017, opioid related deaths rose from 127 to 1,187 per year. A 
majority of the opioid fatalities in our country are linked to 
synthetic opioids like fentanyl.
    These statistics are incredibly alarming. Confronting this 
epidemic means stopping the flow of synthetic opioids entering 
the United States from China and other countries. To do this, 
it is critical that the Department of Homeland Security is 
directing its resources strategically to the areas where most 
of these drugs are coming in.
    Ms. McCauley, according to the 2018 National Drug Threat 
Assessment, a majority of illicit opioids intercepted, 
including fentanyl and heroin, are seized by Customs and Border 
Protection at legal ports of entry.
    Can you give us more details on how exactly the opioids 
being seized are coming into our country? Because it seems that 
the majority are being mailed, is that through personal mail or 
commercial shipments?
    Ms. McCauley. We haven't focused on the drugs that are 
coming in over the ports of entry, over the land ports of 
entry. We have done our work focused on JFK mail, the 
international mail that is coming in there, and that is what we 
are seeing is the foremost problem now. We have some on-going 
work to look at the ports of entry at the land border.
    But, yes, the mail coming through JFK is a big problem. A 
lot more needs to be done in terms of applying the resources 
that are needed to interdict, to identify that mail, and then 
intercept it to keep it from getting into the mainstream.
    Ms. Underwood. In your experience, is it personal mail or 
is it commercial shipments?
    Ms. McCauley. We haven't looked at commercial shipments. We 
mainly looked at the mail that is coming through the U.S. 
Postal Service.
    Ms. Underwood. I see.
    Ms. McCauley. Yes.
    Ms. Underwood. Can anyone else speak to ports of entry on 
this panel?
    Mr. Pardo. So according to CBP seizure data, the bulk 
majority of fentanyl that arrives, by weight, comes over the 
Southwest Border. However, the purity of what is being seized 
there is very, very low versus the purity seized at ports of 
entry in the mail facilities or the express consignment 
facilities is very, very high, about 90 percent above. So after 
adjusting for purity, the bulk majority of fentanyl seized is 
coming by mail or express consignment.
    That said, as Ms. McCauley has noted, JFK is a large hub, 
and we do receive a lot of inbound packages from China. So it 
does seem to stand that it is coming--a large portion is coming 
from China by mail.
    Ms. Underwood. Right. So with the proportion of the 
seizures, does that same logic hold? The majority of the 
seizures are coming by mail and not from ports of entry?
    Mr. Pardo. That is the difficult thing using seizure data 
to really inform this. You don't know what you are not 
catching. But what we are catching is--that shows that China is 
a large supplier.
    Ms. Underwood. OK.
    What resources, Ms. McCauley, are needed to effectively 
apprehend the large share of illicit opioid being trafficked 
through the mail?
    Ms. McCauley. CBP uses a number of methods to screen for 
mail, to inspect for--I am sorry--to inspect for illegal drug 
shipments. It uses canine teams. We saw that at JFK Airport. 
They had a limited number of canine teams to help in terms of 
the inspections.
    They also had a limited number of outdated X-ray machines 
to do the screening. They typically had to do manual screening. 
That is piece by piece, to actually pick up the pieces of mail. 
If you see pictures of the volume of mail that is coming in, 
that is quite a task.
    They also do chemical analysis using the handheld 
screeners. Even those, we saw that they not always have the 
most up-to-date technology.
    So on all 4 scores, in technology, canine teams--and I 
forget to mention staffing as well. They didn't have adequate 
personnel there to help with the screening process. So they 
could do a whole lot in terms of improving in that area.
    Ms. Underwood. Right. As we understand from your report and 
your testimony here today, it is really a multifactorial 
process to do the screening of the mail effectively. So we need 
to make sure that CBP has enough resources to do that to 
protect the American people.
    In both the 2018 OIG report and in your testimony, Ms. 
McCauley, OIG has recommended that CBP conduct an analysis to 
determine what resources are needed to address deficiencies 
while inspecting the international mail.
    But it is really disconcerting to me that OIG has 
recommended that the CBP conduct this assessment twice in 
different reports. There have been two separate 
recommendations. Yet CBP has failed to follow through. So do 
you happen to know when CBP plans to conduct this analysis?
    Ms. McCauley. We are looking at CBP again in terms of the 
mail process up at JFK Airport, and we are following up on that 
information in terms of where they are in addressing our 
recommendations. We will be reporting out this fall.
    Ms. Underwood. Good. Well, we will look forward to seeing 
that.
    In your 2018 report, it recommended that CBP update the 
Mail Operations and Enforcement Handbook, and they haven't done 
that as well.
    So just from where we sit, right, it is very challenging 
recognizing this threat and an agency not following through. I 
am a member of the Freshmen Working Group on Addiction, you 
heard from Mr. Trone earlier today, and look forward to working 
with all our other colleagues to address this issue and advance 
legislation.
    With that, Mr. Chairman, I yield back. Thank you.
    Mr. Rose. Thank you.
    Just to close out, speaking of Mr. Trone, who has, I think, 
extraordinarily effectively led this freshman task force on 
addiction, I would like to just ask 2 questions on his behalf.
    Dr. Pardo, first of all, what are the dangers that we start 
to see domestic production of these synthetics such as 
fentanyl?
    Mr. Pardo. So domestic production of fentanyl was a 
problem. It was a problem up until 2005. I don't think you are 
going to see domestic production of fentanyl for a long time 
given its price. Nobody in the United States is going to stick 
their neck out for $5,000 a kilo. It is just too cheap coming 
from China.
    Mr. Rose. Great. Thank you.
    Ms. Brennan, as well as Dr. Pardo, what examples are we 
seeing as best practices from a law enforcement perspective? I 
know we touched on dealing with this as a health crisis. But 
from a law enforcement perspective, domestically as well as 
world-wide, surely the United States is not the only country 
having to deal with this crisis?
    Ms. Brennan. The crisis in the United States is more 
significant than anywhere else, much more significant. The 
consumption of opioids by the United States, even legal 
opioids, is tremendous compared--I believe the next largest 
consumer is Canada, and it is far lower.
    So the only other country that I am aware of that is 
suffering this kind of addiction issue would be Canada, and 
their source of supply and many of their issues kind-of mirror 
ours.
    So we are in a very challenging situation right now in 
terms of drugs coming in from many different sources, actually. 
We still have legal prescription drugs fueling some of our 
epidemic. It is just--it is a big challenge for us.
    In terms of best practices, I think law enforcement, at 
least I can speak in New York City, the approach is to focus on 
the top of the distribution chain, focus on those drugs that 
are killing people, and make that your top priority. It is 
about protecting lives. We also focus on those organizations 
that are involved in violence in terms of their drug 
trafficking.
    So those are our top priorities, because the main goal with 
regard to drug enforcement really is saving lives.
    Mr. Rose. Great.
    Mr. Pardo. In terms of best practices, we need to start 
thinking outside the box. As prosecutor Brennan noted, Canada 
is kind of the next case study. It is the most approximate in 
terms of what we are seeing, especially in British Columbia and 
Vancouver.
    There are some Nordic countries who are suffering this. 
Estonia has had a fentanyl market for almost 20 years. We think 
that that will be the case here in the United States. New 
Hampshire is far along in the transition to fentanyl. We do not 
foresee heroin coming back. We think that fentanyl will be 
around to stay. So we need to really start----
    Mr. Rose. Pure or----
    Mr. Pardo. Well, I mean, what is offered on the streets is 
generally not pure fentanyl. It is usually pressed with some 
other power or some other filler, because it is just too small 
to handle. You need something else.
    But thinking about kind-of the future, we really need to 
start thinking outside the box. I mean, yes, more of the same 
might help with some things. But we really need to start 
thinking about investigations more on-line, trying to intel--
using intelligence to really understand how these networks 
work, trying to understand how dealers are making the decision 
to import fentanyl or what analogue they are deciding to input, 
how do they determine how to cut it, with what, how do they 
press it into tablets, what machinery are they using.
    I mean, a lot of the machinery that is coming from China--a 
lot of the pill press machines that are being used to 
manufacturer tablets here are coming from China as well.
    So kind-of going back to your earlier question, we don't 
see synthesis here. We do see manufactured tablets here. The 
illicit, the counterfeit tablets. So that is something we need 
greater research and investigation on, working with 
collaborative efforts in Europe, working with law enforcement 
agencies and customs agencies there who have seen this stuff 
before, who are working--you know, doing the same--fighting the 
same problem. We need more efforts internationally to 
collaborate with this problem.
    Mr. Rose. Great.
    All right. Well, thank you again.
    With that, I thank the witnesses for their valuable 
testimony and the Members for their questions.
    The Members of the committee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    Pursuant to committee rule VII(D), the hearing record will 
be open for 10 days.
    Without objection, the subcommittees stand adjourned.
    [Whereupon, at 11:51 a.m., the subcommittees were 
adjourned.]

                            A P P E N D I X

                              ----------                              

          Questions From Chairman Thompson for Sondra McCauley
    Question 1. Each new phase of the opioid epidemic has caught the 
country unprepared: If fentanyl analogues do indeed represent a 
``Fourth Wave'' of the crisis, what do you expect to be the most 
glaring weakness of our current interdiction capability?
    Answer. The Department of Homeland Security Office of Inspector 
General has focused our oversight work on the interdiction capabilities 
at John F. Kennedy (JFK) airport, the Nation's largest international 
mail hub. U.S. Customs and Border Protection's (CBP) limited mail 
screening practices at JFK airport is the most glaring weakness 
identified in our office's work in the 2018 audit, ``CBP's 
International Mail Inspection Processes Need Improvement at JFK 
International Airport''.
    OIG will continue to provide effective oversight in this critical 
area. In addition to our on-going follow-up audit related to CBP air 
mail inspection processes at JFK, our office is also considering work 
to determine the status of inspections at Express Consignment Centers, 
such as those run by FedEx, DHL, and United Parcel Service.
    Question 2. Have the re-assignments of Office of Field Operations 
Officers to Border Patrol duties degraded the ability of ports of entry 
to identify and seize fentanyl and other narcotics?
    Answer. The Office of Inspector General has not completed any audit 
work related to re-assignments of Office of Field Operations Officers 
to Border Patrol duties so I am unable to offer an opinion on whether 
it affects drug interdiction efforts at the ports of entry. CBP 
informed us there has only been one re-assignment from the JFK 
International Mail Facility (IMF); however, we have not determined the 
impact of this re-assignment.
         Question From Chairman Thompson for Bridget G. Brennan
    Question. Each new phase of the opioid epidemic has caught the 
country unprepared: If fentanyl analogues do indeed represent a 
``Fourth Wave'' of the crisis, what do you expect to be the most 
glaring weakness of our current interdiction capability?
    Answer. Response was not received at the time of publication.
       Questions From Chairman Bennie G. Thompson for Bryce Pardo
    Question 1. Have you seen any indication of other emerging opioid 
threats aside from fentanyl's? For example, chemical producers may 
shift synthesis to non-fentanyl-based opioids to avoid scheduling.\1\ 
Additionally, what recommendations would you propose to combat this? 
What are you currently doing to combat these new novel opioids?
---------------------------------------------------------------------------
    \1\ Karen Steward, Identifying Novel Opioid Agonists From 
Metabolites, TECHNOLOGY NETWORKS, August 2, 2019, https://
www.technologynetworks.com/applied-sciences/blog/identifying-novel-
opioid-agonists-from-metabolites-322453.
---------------------------------------------------------------------------
    Answer. An examination of Federal and State law enforcement drug 
seizures suggests that the nature of the supply of synthetic opioids 
changes from year to year. Although fentanyl dominates these seizure 
counts, the emergence (and sometimes decline) of other fentanyl analogs 
(e.g., acrylfentanyl, carfentanil, 4-fluoroisobutyryl fentanyl) and 
non-fentanyl synthetic opioids (e.g., U-4770, AH-7921) is documented. 
Similarly, on-line vendor websites offer variations of nonfentanyl 
synthetic opioids, such as the U-series or AH-series, and their various 
analogs.
    While a generic control (i.e., a blanket ban on all fentanyl-
related structures) might help to future-proof drug control efforts 
aimed at fentanyl, it might also encourage chemists to move to non-
fentanyl synthetic opioids. Although employed in parts of Europe, 
generic controls are relatively new and untested in the United States. 
That said, reducing the number of chemicals that are introduced to U.S. 
drug markets could help reduce product variability that increases risks 
that result in overdose.
    Apart from generic controls, which focus on the chemical 
composition of the substance in question, alternative approaches may be 
warranted. Other countries have attempted, with mixed results,\2\ to 
control emerging substances based on their intended pharmacological 
effect. In some cases, a substance is subject to control if it has an 
effect or binds to a certain receptor in the central nervous system. 
This approach, circumscribed to a handful of structural classes, was 
introduced in the United States under the Synthetic Drug Abuse 
Prevention Act of 2012. The law added ``cannabimimetic agents'' to 
Schedule I of the Controlled Substances Act and defined them as any 
substance that is a ``cannabinoid receptor type 1 (CB1) agonist as 
demonstrated by binding studies and functional assays within five 
structural classes.''
---------------------------------------------------------------------------
    \2\ Although blanket controls recently adopted in the United 
Kingdom were used to bring a wide range of new psychoactives under 
scheduling, the country faced substantial problems operationalizing 
enforcement and bringing cases to trial. Early assessments by the 
government point to mixed results (see U.K. Home Office, Review of the 
Psychoactive Substances Act 2016, London, November 2018).
---------------------------------------------------------------------------
    Question 2. Have the re-assignments of Office of Field Operations 
Officers to Border Patrol duties degraded the ability of ports of entry 
to identify and seize fentanyl and other narcotics?
    Answer. I cannot speak to personnel decisions made by Customs and 
Border Protection, and my research has not examined the specific 
impacts of such decisions. But, in the abstract, any decision to 
reallocate resources comes with a trade-off. Good policy making 
recognizes and is explicit about such trade-offs.
    In general, reassigning personnel from one port of entry to another 
may affect the number or quantity of fentanyl or other narcotics 
seized. In my written testimony, I present Customs and Border 
Protection seizure data for fentanyl for fiscal year 2018, noting the 
amounts and estimated purity across various types of ports of entry. 
Based on these data--which may not be representative of supply routes 
\3\--the majority of pure fentanyl seized (i.e., adjusted for purity) 
comes by air to mail and express consignment carrier facilities.
---------------------------------------------------------------------------
    \3\ Peter Reuter, ``Seizures of Drugs,'' in Jane Smith and Bob 
Johnson, eds., Encyclopedia of Drugs and Alcohol, New York: MacMillan, 
1995.
---------------------------------------------------------------------------

                                 [all]
</pre></body></html>
